<html>
<title> - UNITED STATES DEPARTMENT OF HOMELAND SECURITY</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]




 
                      UNITED STATES DEPARTMENT OF 
                           HOMELAND SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 14, 2015

                               __________

                           Serial No. 114-40

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov
                                _________
                                
                                
                 
                                
                                
                                
                                
                         U.S. GOVERNMENT PUBLISHING OFFICE
95-482 PDF                        WASHINGTON : 2015       
_________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office,
      Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
     Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001
                                
      
      
      
                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
LAMAR S. SMITH, Texas                ZOE LOFGREN, California
STEVE CHABOT, Ohio                   SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 HAKEEM JEFFRIES, New York
BLAKE FARENTHOLD, Texas              DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia                SCOTT PETERS, California
RON DeSANTIS, Florida
MIMI WALTERS, California
KEN BUCK, Colorado
JOHN RATCLIFFE, Texas
DAVE TROTT, Michigan
MIKE BISHOP, Michigan

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel
        
        
        
        
        
                            C O N T E N T S

                              ----------                              

                             JULY 14, 2015

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     3

                                WITNESS

The Honorable Jeh Charles Johnson, Secretary of Homeland Security
  Oral Testimony.................................................     8
  Prepared Statement.............................................    11

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................     6
Material submitted by the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Committee on the Judiciary.....................................    41
Material submitted by the Honorable Hakeem Jeffries, a 
  Representative in Congress from the State of New York, and 
  Member, Committee on the Judiciary.............................    81

                                APPENDIX
               Material Submitted for the Hearing Record

Material submitted by the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Ranking Member, Committee on the Judiciary.....................    94
Material submitted by the Honorable Jerrold Nadler, a 
  Representative in Congress from the State of New York, and 
  Member, Committee on the Judiciary.............................    98
Prepared Statement of Church World Services (CWS)................   103
Response to Questions for the Record from the Honorable Jeh 
  Charles Johnson, Secretary of Homeland Security................   104

 
             UNITED STATES DEPARTMENT OF HOMELAND SECURITY

                              ----------                              


                         TUESDAY, JULY 14, 2015

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:20 a.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Smith, Chabot, Forbes, 
King, Franks, Gohmert, Jordan, Poe, Marino, Gowdy, Labrador, 
Farenthold, Holding, DeSantis, Buck, Ratcliffe, Trott, Bishop, 
Conyers, Nadler, Lofgren, Jackson Lee, Cohen, Johnson, Chu, 
Deutch, Gutierrez, Jeffries and Peters.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian and General Counsel; 
George Fishman, Chief Counsel, Subcommittee on Immigration and 
Border Security; Andrea Loving, Counsel, Subcommittee on 
Immigration and Border Security; Kelsey Williams, Clerk; 
(Minority) Perry Apelbaum, Staff Director & Chief Counsel; 
Danielle Brown, Parliamentarian and Chief Legislative Counsel; 
Aaron Hiller, Chief Oversight Counsel; Tom Jawetz, Chief 
Counsel, Subcommittee on Immigration and Border Security; 
Maunica Sthanki, Counsel; and Veronica Eligan, Professional 
Staff Member.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order, and without objection, the Chair is authorized 
to declare recesses of the Committee at any time.
    We welcome everyone to this morning's hearing on Oversight 
of the United States Department of Homeland Security. In a 
moment, I will begin by recognizing myself for an opening 
statement, and then I will recognize Mr. Conyers, when he 
arrives. I do want to advise everyone, as the Secretary is 
already aware, many Members on the Democratic side are meeting 
with former Secretary Clinton, and when they arrive, we will 
recognize Mr. Conyers for his opening statement, but we are 
going to proceed, because we appreciate the Secretary's time as 
well.
    Good morning to everyone, and I want to extend our welcome 
to Secretary Johnson for testifying before us today for the 
second time. When Secretary Johnson testified last year, I 
stated that he was not responsible for the dangerous and 
irresponsible decisions made by DHS before he was sworn in. I 
stated that we could only hope that he would bring back a level 
of adult responsibility to the enforcement of our immigration 
laws.
    Unfortunately, since that hearing, and under Secretary 
Johnson's leadership, the deterioration of immigration 
enforcement has accelerated. DHS, under the Obama 
administration, has taken unprecedented steps in order to shut 
down the enforcement of the immigration laws for millions of 
unlawful and criminal aliens not considered high enough 
priorities. This is done under the guise of prosecutorial 
discretion.
    Unfortunately, new priorities issued by Secretary Johnson 
last November have turned the flight from enforcement into a 
headlong rush. Although DHS previously deemed fugitive aliens 
to be a priority for removal, Secretary Johnson's guidelines, 
these aliens are no longer a priority if they were issued a 
removal order before January 1, 2014.
    This means that DHS is disregarding removal orders that 
have already been issued and wasting the millions of taxpayer 
dollars spent to obtain the orders.
    Although DHS claims that gang members are a top priority 
for removal, gang members are most often convicted under State, 
not Federal law, and State convictions for gang-related 
activity are ignored under Secretary Johnson's priorities.
    Secretary Johnson considers that secondary as priorities 
for removal of aliens convicted of significant misdemeanors, 
such as domestic violence, sexual abuse, or exploitation, 
burglary, unlawful possession of a firearm, drug trafficking, 
or drunk driving. Yet, even this priority falls away if the 
aliens simply show factors warranting relief.
    Despite DHS' pledge to prioritize the removal of serious 
criminal aliens, in the last year, the number of administrative 
arrests of criminal aliens has fallen by a third, and the 
Department continues to release thousands of such aliens onto 
our streets.
    U.S. Immigration and Custom Enforcement has admitted to 
releasing 30,558 aliens with criminal convictions in 2014. Last 
Friday, we received data from DHS regarding the recidivist 
activity of these criminal aliens ICE released in 2014. 1,423 
have already been convicted of new crimes like vehicular 
homicide, domestic violence, sexual assault, DUI, burglary, and 
assault, among many others.
    Because of the failure of this and previous Administrations 
to detain criminal aliens and the failure to vigorously pursue 
fugitives, there are almost 180,000 convicted criminal aliens 
currently in removal proceedings who are living in our 
neighborhoods, and almost 170,000 convicted criminal aliens who 
have been ordered removed yet are also living free.
    Under the Obama administration, the total number of such 
convicted criminal aliens who are not being detained has jumped 
28 percent since 2012, as shown by this chart. The tragic 
impact of the Department of Homeland Security's reckless 
policies on the safety of Americans was made all too apparent 
in recent weeks. A convicted criminal alien, who had been 
deported numerous times, killed an innocent American woman on a 
popular pier in San Francisco.
    ICE had recently issued a detainer for the alien, which San 
Francisco, a sanctuary city, simply ignored and proceeded to 
release him. Unfortunately, DHS openly advertises that 
jurisdictions can ignore its detainers.
    While testifying this March, ICE Director Saldana expressed 
her enthusiastic support for mandatory detainers. Then, the 
very next day, she retracted that statement made under oath and 
called mandatory detainers highly counterproductive.
    There are now more than 200 jurisdictions, including San 
Francisco, which refuse to honor ICE detainers. This 
effectively releases criminal aliens onto the streets with all 
too tragic results.
    Secretary Johnson's solution, the Priorities Enforcement 
Program, is a failure. Politely asking for cooperation from 
sanctuary cities is a fool's errand. The clear answer to this 
problem is for DHS to mandate compliance with detainers and for 
this Administration to defend the mandatory nature of detainers 
in Federal court.
    Unfortunately, the Administration has taken neither of 
these crucial steps to keep our communities safe. Prior to 
Secretary Johnson's appointment, DHS, under the Obama 
administration, went beyond simple nonenforcement and took the 
leap of granting administrative amnesty to a class of hundreds 
of thousands of unlawful aliens. Then, last November, Secretary 
Johnson announced that DHS would grant such deferred action to 
over 4 million more unlawful aliens. By granting these classes 
of people deferred action, he would bestow benefits such as 
legal presence, work authorization, and access to the Social 
Security trust fund, and the earned income tax credit.
    It is within the constitutional authority of Congress, not 
the Administration, to grant such benefits to classes of 
unlawful aliens. Twenty-six States believe that Secretary 
Johnson's planned grant of deferred action en masse would cause 
them irreparable harm. They challenged the plan in Federal 
court. The judge agreed with the States and has granted a 
temporary injunction.
    The court stated that the Administration is not just 
rewriting the laws. It is creating them from scratch. An 
appeals court has rejected the Administration's request of a 
stay of that injunction. While the continuing injunction 
against unconstitutional affirmative grant of deferred action 
is a welcome development for the health of our Constitution, 
the court was clear that it was not interfering in any way with 
Secretary Johnson's nonenforcement of our immigration laws.
    The American people have rightly lost all confidence in 
this Administration's willingness to enforce our current 
immigration laws. This has become the single biggest impediment 
to Congress' ability to fix our broken immigration system. I 
look forward to testimony of Secretary Johnson.
    And now it is my pleasure to recognize the Ranking Member 
of the Committee, the gentleman from Michigan, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Thank you, Mr. Chairman, Members of the 
Committee, and our distinguished witness, Secretary Jeh 
Johnson. When you last testified before this Committee, I said 
that given his distinguished record of public service, I could 
think of no person better equipped to lead the Department of 
Homeland Security, and to carry out the President's directive 
that we carry out our immigration policies in the most humane 
way possible.
    Much has happened in the past year, and I am pleased to say 
that I stand by my initial assessment, which is not to say, Mr. 
Secretary, that there is not still a great amount of work to 
do.
    In your written testimony, you speak in great detail about 
your efforts to counter the global terrorist threat, which has 
become decentralized, more diffuse, and more complex. I agree 
that ISIL and al-Qaeda have moved to a new phase of the 
conflict, recruiting, at risk, individuals hoping to inspire 
attacks in the West. The Department rightly combats this threat 
with a combination of heightened security measures and 
community outreach.
    But I wonder if the Department has also taken note of a 
recent study by New America which demonstrates that since 
September 11, 2001, nearly twice as many people have been 
killed by White supremacists, antigovernment fanatics, and 
other non-Muslim extremists than by radical Muslims?
    Another study released last month by the Police Executive 
Research Forum shows that State and local law enforcement 
agencies feel far more threatened by right wing and 
antigovernment terrorism as they are about ISIL-inspired 
attacks. And I hope that you will provide us with some 
assurance today that our priorities are in order and that the 
Department focuses on homegrown extremism with the same 
forcefulness it has shown in countering threats from abroad.
    The immigration actions you initiated last November through 
a series of memoranda should make our immigration enforcement 
system smarter, more efficient, and ultimately more humane. 
Carrying out these reforms clearly has not been easy, but 
meaningful reforms rarely are. Your job has been made harder by 
the refusal of conservative leadership in the House to allow a 
vote on the immigration reform bill that passed the United 
States Senate 2 years ago with 68 votes.
    It has been made harder by their refusal to consider the 
bipartisan House bill, H.R. 15, which had 201 cosponsors in the 
last Congress, and is made harder by the barrage of litigation 
that you had to fight off as you have attempted to implement 
common sense and entirely lawful immigration reform.
    At the end of the day, it only makes sense that people who 
commit serious crimes and pose a danger to the public should be 
our highest priorities. Those with strong ties to this country, 
the spouses of citizens and permanent residents, the parents of 
citizens and dreamers, and those who have worked productively 
in the United States for many years should not be. Who could 
disagree with that?
    We are already seeing a positive impact from the reforms 
that have been implemented, and I thank you for your tenacity. 
Certainly, we may disagree about the implementation of some of 
the enforcement reforms, and that is something that we will 
monitor, but I believe we are heading in the right direction.
    One area that is particularly in need of urgent reforms 
involves the detention of mothers and children in secure jail-
like facilities. You recently acknowledged that substantial 
changes must be made to the current policy of detaining 
thousands of these families, some for many months, and some for 
longer than a year. We are monitoring these changes because we 
know from experts that family detention is causing real lasting 
damage to these children.
    We look forward to continuing to work with you to ensure 
that all aspects of the Department of Homeland Security operate 
in a way that reflects our American values and continue to 
honor the contribution of immigrants to our great Nation.
    One final note. The Chairman spoke about the tragic death 
of Katie Steinle, an innocent young woman who was walking with 
her father on a San Francisco pier. Our hearts go out to her 
family. But as we think about the proper way to respond to the 
situation, we must make sure we do not adapt policies that 
would diminish public safety and undermine our commitment to 
the Constitution and civil liberties.
    And so I ask, Mr. Chair, unanimous consent to enter into 
the record yesterday's New York Times editorial entitled, 
``Lost in the Immigration Frenzy.'' I thank you and I look 
forward to hearing the testimony of our witness, and I yield 
back the balance of my time.
    Mr. Goodlatte. The Chair thanks the gentleman, and without 
objection, the editorial will be made a part of the record.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
        
                  __________
    Mr. Conyers. Thank you, sir.
    Mr. Goodlatte. Without objection, all other Members' 
opening statements will be made a part of the record as well, 
and we will, again, welcome our distinguished witness. And 
Secretary Johnson, if you would please rise, I'll begin by 
swearing you in.
    Do you swear that the testimony that you are about to give 
shall be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Secretary Johnson. I do.
    Mr. Goodlatte. Thank you very much. Let the record reflect 
that the witness responded in the affirmative, and we'll 
proceed to the introduction.
    Jeh Charles Johnson was sworn in on December 23, 2013, as 
the fourth Secretary of Homeland Security. Prior to joining 
DHS, Secretary Johnson served as general counsel for the 
Department of Defense, where he was part of the senior 
management team and led more than 10,000 military and civilian 
lawyers across the Department.
    Secretary Johnson was general counsel of the Department of 
Air Force from 1998 to 2001, and he served as Assistant U.S. 
Attorney for the Southern District of New York from 1989 to 
1991.
    In private law practice, Secretary Johnson was a partner in 
the New York City based law firm Paul, Weiss, Rifkind, Wharton 
& Garrison. Secretary Johnson graduated from Morehouse College 
in 1979 and received his law degree from Columbia Law School in 
1982.
    Mr. Secretary, your entire written statement will be 
entered into the record, and we ask that you summarize your 
testimony in 5 minutes or less, and we welcome you again.

 TESTIMONY OF THE HONORABLE JEH CHARLES JOHNSON, SECRETARY OF 
                       HOMELAND SECURITY

    Secretary Johnson. Thank you, Chairman. I can do that. You 
have my prepared testimony, as you noted. Chairman Goodlatte, 
Congressman Conyers, Members of this Committee, it's a pleasure 
to see you again.
    Chairman, last time I was here, I noted, or you noted that 
38 years ago, I was an intern for Congressman Hamilton Fish, 
who was a Member of this Committee. I recall, after talking to 
some of the congressional interns who were here, 38 years ago 
very vividly, Congressman Fish sent me to a hearing of the 
Senate Judiciary Subcommittee on the Constitution over on the 
Senate side 38 years ago this month. I remember it like it was 
yesterday. The witness was talking about the abolition of the 
electoral college, and in the middle of his testimony, he had a 
massive heart attack and dropped dead. I hope not to make such 
news today.
    Mr. Goodlatte. We hope and pray not either.
    Secretary Johnson. In all seriousness, as you know, 
Chairman, the Department has many missions. We have 22 
components, 225,000 people. We are focused on a number of 
things. My top priority for 2015 has been management reform, 
ensuring that our Department functions most effectively and 
efficiently for the American people.
    I am pleased that we have filled almost all the vacancies 
that existed in my Department when I came in 18 months ago, 
most recently with the Senate confirmation of our now TSA 
administrator, Vice Admiral Pete Neffenger. We are doing a 
number of other things to reform and make more efficient how we 
conduct our business. We are focused on aviation security; of 
course, we are focused on counterterrorism, which, in my view, 
remains the cornerstone of our Department's mission.
    We're focused on cybersecurity. I refer the Members to an 
op-ed that I submitted, which appears today in Politico on 
Federal cybersecurity and how I think we need to improve our 
mission there and the things we are doing in DHS to improve our 
Federal civilian.gov network
    On immigration. Respectfully, it is a fiction to say we are 
not enforcing the law. Apprehensions are down. They are down 
considerably from where they were a year ago, but there are 
still apprehensions daily, in particular, on the southern 
border. I am pleased that the spike we saw last summer on the 
southern border has not returned, and apprehensions, which are 
an indicator of total attempts to cross the border, are down 
considerably. If the current pace continues, apprehensions will 
be at the lowest since some time in the 1970's.
    In terms of enforcement and removal. Without a doubt, the 
new policy that I announced and am directing prioritizes 
threats to public safety and border security. Without a doubt, 
we are moving increasingly in the direction of deporting 
criminals, absolutely, and I stand by that because I believe it 
is good for public safety.
    I am pleased that of those in immigration detention now, 96 
percent are in my top two priorities for removal. Seventy-six 
percent are in my top priority for removal, that is, those 
apprehended at the border, convicted felons. That is the 
direction we are moving in with the resources we have. I 
believe we need to continue to focus our resources on 
criminals, on threats to public safety, on border security.
    Part of that is fixing our relationship with State and 
local law enforcement. The Secure Communities Program had 
become legally and politically controversial to the point where 
something like 300 jurisdictions had enacted or imposed 
limitations on their law enforcement's ability to cooperate 
with our immigration enforcement personnel. That needed to be 
fixed because it was inhibiting our ability to get at the 
criminals.
    And so what the President and I did was to replace the 
Secure Communities Program with the new Priority Enforcement 
Program, which I believe resolves the legal and political 
controversy, and we are actively reaching out to State and 
local law enforcement and jurisdictions to introduce the 
program and encourage them to work with us. Of the 49 biggest, 
I am pleased to report that some 33 have indicated an agreement 
and a willingness to work with us. Only five of those 49 have 
said no, so far, but we are going to go back to them. This is a 
work in progress.
    The County of Los Angeles is a big one that has agreed to 
work with us in the new program, to more effectively get at 
threats to public safety. That is the direction, I believe, we 
should go in for the sake of public safety, homeland security, 
and border security. As the Chairman referenced, our deferred 
action program for adults is pending right now in litigation. 
The district court issued an injunction. That matter is on 
appeal right now. Oral argument on the appeal was last Friday. 
We await the decision.
    And Chairman, Congressmen, I look forward to your 
questions. Thank you.
    [The prepared statement of Secretary Johnson follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
       
                  __________
    Mr. Goodlatte. Thank you, Mr. Secretary, and I'll recognize 
myself.
    You claim to prioritize immigration enforcement against 
criminal aliens, and the number of available immigration 
detention beds you utilize continues to fall. Thirty-four 
thousand are authorized. Only 24,000 to 26,000 are being 
utilized.
    So can you explain to me the continued increase in the 
number of convicted criminal aliens in removal proceedings who 
have already been ordered removed who are not being detained by 
DHS? The number of these convicted criminal aliens allowed on 
our streets has gone up by 28 percent in less than 3 years. And 
again, I'll direct your attention to the chart over there. From 
270,000 to almost 350,000, these people are out on the streets, 
and many, many of them are committing new crimes.
    And I would very much like you to explain how this priority 
system is working when you're not fully utilizing it, not 
removing 350,000 people who have been ordered removed, and not 
even using the capabilities that the Congress is paying for.
    Secretary Johnson. Well, last time I looked, the number of 
those detained in immigration detention has been going up. Last 
time I checked, it was up to around 31,000. That's a day-to-day 
report I get, and the last time I checked, it was up to around 
31,000. That is less than the full capacity that Congress has 
given us of some 34,000, to be sure, but it is moving in the 
direction of----
    Mr. Goodlatte. Given that there is 350,000 on the street, 
should we be providing you with additional capacity, or when 
are you going to get to the 34,000?
    Secretary Johnson. Well, like I said, it's trending in that 
direction. We have, as you know, established greater capability 
to detain those who bring their children with them, and I have 
issued policies to reform those practices because of the 
special considerations that go into dealing with children, but 
we have increased the capacity. It is going up, and one of the 
reasons I think it's lower than 34,000 is, frankly, the 
apprehension rates are lower, and because of the problem we had 
with Secure Communities, which was inhibiting our ability to 
conduct interior enforcement. Some----
    Mr. Goodlatte. Let me ask you about that. Why do you think 
that cooperation with ICE and their detainer should be 
voluntary?
    Secretary Johnson. Well, if I could just finish my 
sentence.
    Mr. Goodlatte. Sure.
    Secretary Johnson. Some 12,000 detainers last year were not 
acted upon by State and local jurisdictions. I do not believe 
that we should mandate the conduct of State and local law 
enforcement through Federal legislation. I believe that the 
most effective way to work with jurisdictions, particularly the 
larger ones, is through a cooperative effort, and I believe 
State and local law enforcement believes that as well, through 
a cooperative effort with a program that removes the legal and 
political controversy. One of the problems we have----
    Mr. Goodlatte. Let me ask you about that. Isn't it true 
that some of the worst offending jurisdictions have declined to 
even participate in your New Priority Enforcement Program?
    Secretary Johnson. I would disagree with that, sir.
    Mr. Goodlatte. It's my understanding that five Priority A 
jurisdictions, the highest priority have said, outright, no.
    Secretary Johnson. And as I indicated a moment ago, 33 have 
indicated a willingness to participate in one way or another. 
Of the 49 top, 11 are still considering it, and we've contacted 
literally hundreds. But the 49 I'd mentioned are the 49 top 
priorities because they are the largest jurisdictions, and the 
overwhelming number have indicated a willingness to work with 
us.
    Mr. Goodlatte. Of the 276 so-called sanctuary cities where 
they have publicly taken a position to not cooperate with ICE, 
last year, some 8,000 criminal aliens were released by those 
communities onto the streets of their communities and of this 
country. And in the short time since those 8,000 were released, 
they have already committed nearly 1,900 new crimes. Why 
wouldn't it be a priority to do everything possible to mandate, 
influence, whatever the case might be, for them to honor ICE 
detainers rather than to see this occur?
    Now, I have to say, the Department is not operating with 
clean hands when they go to these communities and say don't 
release 8,000, because the Department released 30,000 last year 
under their own procedures. And again, that helped to 
contribute to this growing list now of nearly 350,000 
individuals who are either under a deportation order or have 
deportation proceedings pending who have been released by ICE 
or by others and are out on our streets.
    Secretary Johnson. Well, if you're asking me should we 
reduce or eliminate the criminals who are undocumented who were 
released by sanctuary cities----
    Mr. Goodlatte. And by the Department.
    Secretary Johnson. I agree that we should work to reduce 
that number, absolutely. I agree with the spirit of your 
question.
    Mr. Goodlatte. But the trend is going the wrong way.
    Secretary Johnson. I disagree that through Federal 
legislation we should mandate how State and local law 
enforcement relates to us. I don't think that that's going to 
solve the controversy in the courts. And in terms of the 
30,000, as you know, Chairman, I have issued----
    Mr. Goodlatte. How about incentivizing them?
    Secretary Johnson. As you know, Chairman, I have issued new 
guidelines to deal with releases of those who have been 
convicted of something from immigration detention to tighten up 
on it, higher level approval authority, and that we should no 
longer release somebody for budgetary or reasons of lack of 
space. We will find the space if there is somebody that we 
think should be detained and we can detain them consistent with 
the law. That has been my directive. I want to see that number 
go down, too.
    Mr. Goodlatte. Thank you. The gentleman from Michigan is 
recognized.
    Mr. Conyers. Thank you, Mr. Chairman, and welcome, Mr. 
Johnson. We are very pleased to have you here. And I was just 
looking over your article in the newspapers today about 
cybersecurity, and you say ``Often, sophisticated actors 
penetrate the gate because they know they can count on a single 
user letting his guard down, but we've increased and will 
continue to increase, with Congress' help, to do much more.''
    Do you have an additional comment about that? I'm going to 
put this in the record.
    Secretary Johnson. Yes, Congressman. I have been struck by 
the fact that very often, the most sophisticated far-reaching 
attacks, whether in the private sector or in the government, by 
the most sophisticated actors often starts with a simple act of 
spear phishing, someone opened an email that they shouldn't 
have, and so a large part of our efforts have to be education 
of our workforce about not opening suspicious emails, emails 
they don't recognize
    Mr. Conyers. Thank you. On immigration enforcement 
priorities. Over the past 6\1/2\ years, this Administration has 
set many new immigration enforcement records. Over the first 6 
years, the number of people removed was so much greater than it 
had been under past Administrations, but the President was 
famously described as the deporter in chief. The Washington 
Post recently reported that your Department is now on pace to 
remove fewer people in the current fiscal year than in the past 
fiscal years. Can you explain why the removal numbers went down 
in this past year?
    Secretary Johnson. Well, as I mentioned, Congressman, I'd 
like to see us move in the direction of focusing on threats to 
public safety, and that's what we're doing. While the overall 
number of deportations has been going down, an increasing 
percentage of those we detain, and hopefully those we 
ultimately remove are convicted criminals, recent border 
arrivals illegally, and threats to public safety. That is the 
direction that I believe we need to go in.
    Mr. Conyers. Good. Let me ask you about the decision to 
replace Secure Communities with Priority Enforcement Program. I 
understand the Secure Communities, the fingerprints of every 
person arrested and booked for a crime by local law enforcement 
are checked not only by the FBI, but also against Department of 
Homeland Security immigration records. Will that 
interoperability still be present under the Priority 
Enforcement Program?
    Secretary Johnson. Yes.
    Mr. Conyers. Excellent. Now the Montgomery County chief of 
police recently said his office notifies ICE when serious 
criminals are set to be released, and ICE is always able to get 
there on the day of release to assume custody. Would you say 
ICE will generally take appropriate action when notified about 
the release of a serious criminal?
    Secretary Johnson. We will generally take appropriate 
action to avoid the release of a serious criminal, absolutely, 
yes
    Mr. Conyers. Very, very good. And finally, can you comment 
on this shooting of Kate Steinle in California. In general, how 
do you respond to people who say that our southwest border is 
not secure? How secure is our southwest border compared to 
other times in our history?
    Secretary Johnson. Over the last 15 years in the Clinton, 
Bush, and Obama administrations, we--and I include in the 
statement, we, the Congress as well--have made historic 
investments in border security. For example, 15 years ago, 
there was only 70 miles of fence on the southwest border. Now 
there is 700 miles of fence. We are up to 18,000 and change in 
terms of border patrol personnel on the southwest border, and I 
believe that is reflected in the numbers.
    In the year 2000, apprehensions on the southern border were 
1.6 million. In recent years, they are down around 400,000. 
This year, I suspect, will be somewhere in the 300,000's, even 
lower. That is due, in very large part, to the investments we 
have made in border security with this Congress, and I want to 
continue that progress through investments in technology, 
surveillance equipment, and so forth.
    In terms of the San Francisco case, Kate Steinle, and I 
hope I pronounced her last name correctly. It's a tragedy.
    Mr. Conyers. Thank you. Just finally, I understand that Mr. 
Lopez-Sanchez has returned to the country multiple times after 
being deported, but in most instances, hasn't he been 
apprehended right away? Can you give us a little illumination 
on that subject?
    Secretary Johnson. My understanding is that he was deported 
five times and returned five times and he was prosecuted for 
unlawful reentry three times, and served fairly significant 
jail sentences.
    Mr. Conyers. Uh-huh.
    Secretary Johnson. He was in BOP custody serving his last 
sentence. We put a detainer on him. Then he was transferred to 
the San Francisco sheriff. We put another detainer on him, and 
he was released. My hope is that jurisdictions like San 
Francisco, San Francisco County will cooperate with our new 
program.
    I was pleased that Senator Feinstein wrote the mayor and 
asked that San Francisco participate. As the sheriff himself 
has acknowledged, I personally met with the sheriff in April to 
ask for his participation in the PEP program, along with other 
San Francisco area sheriffs in the month of April.
    And so as I said, I'm making the rounds with a lot of 
jurisdictions. My Deputy Secretary and I and other leaders in 
DHS have been very, very active for the purpose of promoting 
public safety to get jurisdictions to cooperate with us on 
this.
    Mr. Conyers. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Mr. Goodlatte. Thank you. The Chair now recognizes the 
gentleman from South Carolina, Mr. Gowdy, the Chairman of the 
Immigration and Border Security Subcommittee for 5 minutes.
    Mr. Gowdy. Thank you, Mr. Chairman. I also want to thank 
the gentleman from Texas for letting me go in his spot.
    Mr. Secretary, I've been on this Committee for almost 5 
years now, and I have listened as witnesses primarily called by 
our colleagues on the other side of the aisle have repeated 
with almost catatonic frequency, certain phrases, phrases like 
``citizenship for 11 million aspiring Americans,'' as if 11 
million of any category could all pass a background check. 
Phrases like ``functional control of the border,'' phrases as 
benign sounding as ``sanctuary cities,'' and I've listened 
pretty carefully, Mr. Secretary, as I've heard argument after 
argument after argument made against empowering State and local 
law enforcement to actually enforce immigration laws. Have you 
had a chance to look at the criminal history of Mr. Lopez-
Sanchez?
    Secretary Johnson. I believe I have, yes.
    Mr. Gowdy. It dates back to 1991. The criminal conduct 
occurred in five separate States. He's committed local, State, 
and Federal crimes. He was and is, by any definition, a career 
criminal. He violated at least three separate statutes when he 
simply picked up the gun before he shot and killed an innocent 
woman walking with her father.
    So, to me, Mr. Secretary, he is exhibit A that we must not 
have functional control over the border or he wouldn't have 
reentered so many times. And he is, I'm assuming, not able to 
pass anyone's background check. I would hope that somebody with 
his criminal history couldn't even pass our friend in the 
Senate's comprehensive immigration reform background check.
    Now, I want us to look at a legal issue in a second, Mr. 
Secretary, but I want to read a quote to you, and I want to ask 
you if you know who said it. ``I want people who are living in 
the country undocumented to come forward, to get on the books 
and subject themselves to a background check so I can know who 
they are and whether it's the current DACA program or a path to 
citizenship, whether it's deferred action or earned path to 
citizenship. From a Homeland Security perspective, I want 
people to come forward.'' Do you know who said that?
    Secretary Johnson. Well, I don't know if I said it or not, 
but that is consistent with my own sentiment, so I could have 
said that.
    Mr. Gowdy. You did say that. Now, I want you to tell me 
what in defendant Lopez-Sanchez's background leads you to 
believe that he would, to use your words, come forward?
    Secretary Johnson. Well, clearly he is not the type of 
person that would ever qualify for any sort of deferred action.
    Mr. Gowdy. I know that. Nor is he the type of person that 
would come forward, Mr. Secretary. So my point is, my point is 
when you have a----
    Secretary Johnson. May I finish my sentence, sir?
    Mr. Gowdy. Sir?
    Secretary Johnson. May I be allowed to speak?
    Mr. Gowdy. You are welcome to answer the question that was 
asked, yes.
    Secretary Johnson. Well, give me a chance, please. He is 
not any kind of person who would qualify for any type of 
version of deferred action in my book or earned path to 
citizenship. He is a criminal, a dangerous criminal multiple 
times over.
    When we talk about encouraging people to come forward, what 
we're talking about are people who we hope will report crime, 
who will participate in American society fully. Obviously 
somebody like this is not coming forward. That case is a 
tragedy.
    Mr. Gowdy. No, he is not coming forward, Mr. Secretary. 
I'll let you answer the question, Mr. Secretary, but I'm not 
going to let you run out the clock.
    You're right, he's not coming forward, and he doesn't need 
to get on the books because he's already been on the books. In 
fact, better that being on the books, Mr. Secretary, he was in 
Federal prison. So I want to know why was somebody in Federal 
prison with a Federal detainer on him released to a sanctuary 
city?
    Secretary Johnson. You'd have to ask the Bureau of Prisons.
    Mr. Gowdy. Have you asked the Bureau of Prisons?
    Secretary Johnson. We've had detainer on him, both when he 
was in BOP custody and when he was in the custody of San 
Francisco.
    Mr. Gowdy. I know you did. My question to you is----
    Secretary Johnson. I'm quite sure that there are a lot of 
questions being asked right now. In my book, he is exhibit A 
for why jurisdictions need to work with our Priority 
Enforcement Program. Secure Communities was not working. There 
were over 12,000 detainers of mine that were not acted upon----
    Mr. Gowdy. Well, then why don't you make them mandatory, 
Mr. Secretary?
    Secretary Johnson [continuing]. Because the program was not 
working.
    Mr. Gowdy. Why don't you make the detainers mandatory? If 
cities like San Francisco are not complying with Federal 
detainers, why don't you make them mandatory?
    Secretary Johnson. I think that would be a huge setback in 
our ability to work with State and local law enforcement, and I 
suspect they would agree as well.
    Mr. Gowdy. Well, I do not agree, and I'll tell you why I 
don't agree, Mr. Secretary. What I find ironic is you are not 
willing to mandate Federal detainers, but you are willing to 
mandate that State and local law enforcement cannot assist you 
in enforcing immigration laws. I mean, help me understand that. 
You can empower a city like San Francisco to ignore Federal 
law, but you won't empower State and local law enforcement to 
actually enforce immigration laws. Help me reconcile that.
    Secretary Johnson. Can I speak?
    Mr. Gowdy. Yes, sir. You can have the rest of the time.
    Secretary Johnson. Thank you. Thank you for giving me 7 
seconds.
    Mr. Gowdy. No, you take all the time you want to answer the 
question because I think it's important.
    Secretary Johnson. I'm sure you're aware of this. The 
Secure Communities Program was hugely problematic in the 
courts. The courts were saying that State and local law 
enforcement does not have the authority under the due process 
clause of the Constitution to hold people until we could come 
and get them. Last time I looked at the Federal legislation, 
you cannot rewrite the due process clause of the Constitution, 
so that is a problem.
    I do not believe that mandating through Federal 
legislation, the conduct of sheriffs and police chiefs is the 
way to go. I think it will be hugely controversial. I think it 
will have problems with the Constitution. I want to see us work 
cooperatively with State and local law enforcement, and I 
believe that they are poised to do that.
    Mr. Gowdy. Well, my time is up, Mr. Secretary. The last 
time I looked, we had a supremacy clause, and Federal law 
trumps State laws, so God knows it trumps the law in San 
Francisco. And when I hear the phrase ``sanctuary city,'' as 
benign sounding as it is, it may have been a sanctuary for that 
defendant, but it sure as hell was not a sanctuary for a young 
woman walking with her father.
    So at a minimum, change the name of whatever benign 
sounding program cities like San Francisco want to follow, and 
the money ought to be caught, and I would hope that you would 
insist that Federal detainers be honored and not be 
discretionary, and with that, I would yield back to the 
Chairman.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from New York, Mr. Nadler, for 5 
minutes.
    Mr. Nadler. Mr. Chairman, first I want to welcome Secretary 
Johnson, and as the former Chairman of the Constitution 
Subcommittee, I would like to remind Mr. Gowdy that the 
supremacy clause does not trump the Fourth Amendment, and that 
the Federal courts have held detainers unconstitutional as 
violations of the Fourth Amendment. So when Secretary Johnson 
said there were troubles in the courts, there were, indeed, 
troubles in the courts, and I want to commend the 
Administration for trying to follow a policy that is not 
unconstitutional and illegal on its face as the prior policy 
was.
    Now, Secretary Johnson, I have heard significant concerns 
about mistaken, even fraudulent issuance--I realize this is off 
the one topic we're supposed to talk about, of O-1B and O-2 
visas to aliens coming to the U.S. to work in the motion 
picture industry. Movie and TV production jobs provide the 
livelihood for a great many New Yorkers, so I take very 
seriously allegations that CIS is improperly allowing 
unqualified aliens to fill those jobs.
    I would like your agency to take a serious look at these 
assertions or allegations. Would you commit to working with me 
on this issue?
    Secretary Johnson. Yes.
    Mr. Nadler. Thank you. On an allied topic, we have been 
asked, and I've looked at it sympathetically, frankly, to 
increase the number of H-1B visas. And, in fact, we voted out 
of this Committee an increase of 50,000 H-1B visas, which most 
of us on our side of the aisle voted against only because of 
the provision to eliminate an equivalent number of diversity 
visas, but the assertion that we need more H-1B visas because 
we have to bring engineers and others to this country to fill 
positions that we can't fill here, we've heard that repeatedly.
    And yet we see the recent stories about the Disney Company 
and others laying off hundreds of their own American employees 
who were then forced to train foreigners who came here on H-1B 
visas to replace them. Now, if that is true, that is a very 
serious failing of the H-1B program, and it being used to 
displace American workers rather than to supply people for 
slots that American workers can't fill.
    Is the Department looking into that, as to how that program 
is being abused, and can it be fixed properly?
    Secretary Johnson. Through the H-1B program, those who hold 
visas are not supposed to replace Americans with the jobs, as 
you know, as you pointed out.
    Any such allegations are very troubling to me. I believe 
that such matters should be investigated. I also believe that 
Congress can help in this regard. I think that Congress can 
help through increased enforcement mechanisms for situations 
where an employer does, in fact, replace American workers with 
H-1B holders. That is a recommendation that has been made to 
me, and I support that.
    Mr. Nadler. Thank you. Mr. Secretary, the United States has 
a longstanding commitment to refugee protection. We pride 
ourselves in our open and welcoming refugee and asylum laws. I 
understand that these laws need to be balanced with legitimate 
border security initiatives, obviously, but I'm concerned that 
in our quest to expedite the removal of individuals from our 
country, we may be deporting those with serious persecution 
claims.
    Recently, DHS instituted a pilot program expediting the 
deportation of Central Americans beyond the normal expedited 
removal process. These detainees are apprehended by CBP and 
then detained by ICE away from the general population. They are 
not given any ``know your rights'' presentations or access to 
attorneys, and are deported in a matter of days.
    Advocates on the ground are being told that these detainees 
are being held at facilities, particularly in the Port Isabel 
Detention Centers and other facilities in South Texas. I'm also 
concerned that we may have transferred our burden of border 
security to the Mexican Government, and that they are summarily 
deporting Central American refugees without offering them any 
protection under international law.
    Under U.S. pressure, Mexico has more than doubled its 
detention of deportation of Central American children, 
families, and adults over the last year without commensurate 
resources into identifying and offering protection to 
legitimate refugees. I find these practices troubling, given 
that there are several news reports about the horrific violence 
in the region, especially against women and girls, An article 
stating that Central Americans are being killed upon their 
deportation to Mexico and the United States.
    I would like to enter some of these into the record, Mr. 
Chairman.
    Mr. Goodlatte. If the gentleman will at some point 
designate which one, we'll put them in the record.
    Mr. Nadler. I will indeed. Law enforcement involves 
enforcing those laws that provide protection from persecution, 
too, and we have an obligation to make sure that we don't 
undermine that at our borders or at our friends' borders.
    What is the Administration doing to ensure that Central 
Americans' refugees' international protection claims are being 
honored by both our government, and, that is to say, that they 
have an adequate opportunity make their claims with proper 
legal assistance, and by the government of Mexico?
    Secretary Johnson. Well, a couple of things there, 
Congressman. First, we have prioritized, among our CIS 
personnel, interviews of people on the border, particularly 
from Central America who may have a reasonable fear claim and a 
credible fear claim.
    In the most recent guidance I issued, I directed that these 
interviews be conducted in a reasonable period of time as 
quickly as possible. My hope is that we can get those done, on 
average, around 14 days after apprehension, so that's one thing 
when it comes to refugees.
    The other thing that we have begun, which I'd like to see 
more use of is in-country processing in Central America. Advice 
we got last summer when we were dealing with the spike there is 
we need to offer people a lawful safe path to the United 
States. And so we set up in-country processing, the ability to 
interview kids in the three Central American countries who have 
parents who are lawfully here to see if they would qualify for 
refugee status.
    Frankly, not enough people have taken advantage of the 
program. It's in the low thousands. I would like to see more 
use that method versus trying to make the journey through 
Mexico, which is very dangerous and crossing our border 
illegally. And so we are encouraging people to make use of that 
program in Central America, and I want to see us publicize it, 
put emphasis on it because it is the lawful safe path to come 
to the United States.
    Mr. Nadler. My time is expired. I yield back. Thank you.
    Mr. Goodlatte. The Chair thanks the gentleman, and 
recognize the gentleman from Ohio, Mr. Chabot, for 5 minutes.
    Mr. Chabot. Thank you, Mr. Chairman. I preface my questions 
with just a comment. And that's, we mentioned the Secure 
Communities Program several times this morning, Mr. Secretary, 
and I would just note that the Administration never went to 
court to defend the Secure Communities Program when the issue 
was before the courts. But let me turn to my questions.
    First of all, what is the Administration's position on 
sanctuary cities?
    Secretary Johnson. I'd like to see----
    Mr. Chabot. Does it have one?
    Secretary Johnson. Well, yes, in the sense that I want to 
reduce, if not eliminate, the jurisdictions that don't want to 
cooperate with us and----
    Mr. Chabot. But as far as the existence of actual cities, 
has the Administration actually come out and either condemn 
them on the one hand, or condone them on the other hand?
    Secretary Johnson. Well, whatever label you put on it, 
there are a whole lot of jurisdictions, something like 300 
that----
    Mr. Chabot. What's the definition of a sanctuary city?
    Secretary Johnson [continuing]. Do not cooperate with our 
immigration enforcement personnel.
    Mr. Chabot. What's your operating definition of a sanctuary 
city?
    Secretary Johnson. There are so many around. I just know 
that there are 300--something like 300 jurisdictions that have 
enacted ordinances, executive orders, acting pursuant to State 
law that will not cooperate with us because of the controversy 
around the Secure Communities Program.
    Mr. Chabot. So, in essence, these communities are refusing 
to cooperate with the Federal Government in the enforcement of 
the Federal immigration laws. Would that be a fair 
representation?
    Secretary Johnson. To one degree or another.
    Mr. Chabot. To one degree or another. Okay. Thank you. And 
one of the things that's so annoying, so aggravating, so 
frustrating to a lot of us, and a lot of people that bring this 
whole topic up with me is the fact that this Administration 
seems to be anxious to aggressively pursue communities, States, 
that are enforcing the immigration laws. Arizona is an example, 
and all the way to the U.S. Supreme Court on that.
    So when a State is enforcing our immigration law or 
immigration laws, we go after them. We pursue them. We 
basically, in that case, stop them. However, we have 
communities all over the country that are refusing to enforce 
the immigration laws, and we saw this tragic incident in 
California with this totally innocent 32-year old woman who was 
brutally murdered by somebody who shouldn't even have been 
here.
    And the Administration really, in essence, hasn't actively 
opposed cities that are flaunting our immigration laws. Can you 
understand that frustration that a lot of people have?
    Secretary Johnson. Well, all I know is I've been spending a 
whole lot of time of my own meeting with mayors, governors, 
county execs, sheriffs who have been opposed to cooperating 
with us to encourage them to eliminate those barriers. That has 
not included Arizona. That's including a lot of very large 
jurisdictions that have passed these types of laws to encourage 
them, to repeal them, or interpret them in a certain way 
consistent with our new program, which is aiming at getting at 
the criminals.
    Mr. Chabot. Let me switch gears. Has the Administration 
reached out to the Steinle family, to your knowledge?
    Secretary Johnson. To who?
    Mr. Chabot. To the family of the woman who was brutally 
murdered by this individual who had committed seven different 
felonies in four different States in my understanding, who had 
been deported, kept coming back, has the Administration reached 
out to that family?
    Secretary Johnson. I'm sorry, I don't know the answer to 
that question, sir.
    Mr. Chabot. If I would just note that the Administration 
has reached out in a whole range of homicide cases, criminal 
cases around the country, and I'm not being critical of them 
having done that. I think certainly there are times when the 
Administration should do that, but there are also times--
perhaps they need to do that. I would----
    Secretary Johnson. I don't know the answer to that.
    Mr. Chabot [continuing]. Strongly recommend that. Could you 
check into that and see if they have or haven't?
    Secretary Johnson. Speaking for myself, I have developed a 
practice of reaching out to every sheriff or commissioner or 
chief who has had a law enforcement officer who has died in the 
line of duty myself. I write a letter personally.
    Mr. Chabot. My understanding is they have not, but I would 
ask that the Administration check into that. I'm almost out of 
time. Let me ask you: The fence, how long is our border with 
Mexico?
    Secretary Johnson. Twenty-seven hundred miles, I believe.
    Mr. Chabot. And how much of the fence is actually complete 
at this point?
    Secretary Johnson. Seven hundred, pursuant to congressional 
direction, something around 700, yes, sir.
    Mr. Chabot. Okay. What did the Administration do back in 
2010 which suspended expansion of the virtual portion of the 
fence?
    Secretary Johnson. Well, my understanding is that the 700 
miles, it's 700 and change, was built pursuant to congressional 
mandate. I know that there was some litigation around an 
environmental issue. I also know that a lot of the southwest 
border is very remote, as I'm sure you know. Some of it 
includes the Rio Grande. Other parts of the border are very 
mountainous, and so the fence we have built has been built in 
places where it makes the most sense to have a fence.
    Mr. Chabot. And my time is expired, but just let me 
conclude by noting that that's one of the other things that I 
think is very frustrating to the American public is the fact 
that the law says the fence is to be built. I know not all of 
it is a fence, as we all understand it. Some of it is virtual. 
But the length of time this has taken and the environmental 
lawsuits that have been filed and all the rest, the fence needs 
to be completed. We need to have a secure border. I yield back 
my time.
    Secretary Johnson. I believe that it's almost all completed 
pursuant to the mandate we have from Congress, sir.
    Mr. Chabot. I don't think that's correct, but I'll follow 
up on it. Thank you.
    Mr. Goodlatte. The Chair thanks the gentleman. Recognizes 
the gentlewoman from California, Ms. Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman, and thank you, Mr. 
Secretary, for being here and for the work that you do on 
behalf of our country to keep us safe. It is a tough job, but 
you have approached your duties with skill and dignity, and we 
very much appreciate that.
    I want to touch just briefly on the tragedy in San 
Francisco, the young lady who was walking with her father, 
obviously an outrageous situation. She was shot and killed, and 
I think whenever an innocent citizen loses their life, it 
should cause us to review what are the policies, what could be 
changed that would make our communities safer?
    Some have said we ought to do mandatory sentencing, but my 
understanding is Mr. Sanchez just had finished 4 years in 
prison for the prosecution, so it doesn't appear that that is 
necessarily the answer.
    One of the questions I wanted to explore was the policy of 
transferring from the Bureau of Prisons to a locality on a 
warrant. It's my understanding that there was like a 20-year 
old warrant, it was a bench warrant for Mr. Sanchez, but the 
underlying offense was possession of a small amount of 
marijuana.
    Now, I don't fault--I don't know. I mean, we've asked the 
Bureau of Prisons, you know, what discretion they had, and 
clearly, if you had an outstanding warrant against somebody who 
committed a crime, you know, 2 weeks ago, you don't want the 
Department of Homeland Security to thwart that criminal 
prosecution or locality, but if you have a very old warrant 
with an offense that, you know, probably wouldn't be 
prosecuted, is there some way that we could explore either 
clearing those warrants if there is no intent to prosecute?
    I mean, in that case, you would have a situation where 
probably the arresting officer is retired, there would be no 
witnesses, you couldn't really have an effective prosecution. 
Further, in the State of California today, possession of a 
small amount of marijuana is an infraction. I mean, it doesn't 
even give rise to a prosecution. What are your thoughts on that 
process?
    Secretary Johnson. I agree with the spirit of your 
question. I think that in a situation where the Bureau of 
Prisons has someone that they are about to release because that 
person has completed his sentence and there's an immigration 
detainer, and there's a 20-year old warrant on a marijuana 
charge, there ought to be some discretion and balancing built 
into that so that----
    Ms. Lofgren. Or maybe some communication with the locality 
to find out whether they intend to prosecute?
    Secretary Johnson. Look, I think we need to look at this 
question.
    It may be that they give priority to a criminal warrant, 
which in all cases is not necessarily the best outcome. And so 
I want to look at the question of whether or not we and BOP can 
work more effectively together to make the appropriate 
assessment that it's better that this person go to immigration 
detention versus go to a jurisdiction on a 20-year-old warrant. 
So----
    Ms. Lofgren. Well, I'm glad to hear that, and I would like 
to keep apprised of the progress on that, because I think it's 
an important element of this situation that has sort of not 
been examined.
    I want to talk today about the GAO report just released 
today. You may not have had a chance to review it. But it 
really talks about the manner in which the DHS is screening and 
caring for unaccompanied children when it comes to Mexican 
children at the border.
    And this is an issue that I've raised in the past both 
publicly and privately, that Mexican children under the age of 
14 are presumed not to be competent to make a decision about 
whether to voluntarily return. But what the GAO found is that 
we're not really getting the kind of examination that the law 
envisioned under the trafficking provisions.
    It does trouble me, and I know there are several Members on 
both sides of the aisle who are concerned. You have a child who 
may be a victim of trafficking, they may have been a victim of 
sexual abuse, and yet their interrogation is conducted by a 
uniformed officer who may or may not speak their language in 
front of other people, other children. You wouldn't have a 
police agency in the whole United States that would interview a 
child sexual abuse victim in that manner.
    So I'm wondering, now that we have the GAO report, whether 
we can revisit how we are doing these interviews and whether we 
might take a clue from police agencies around the United States 
to make sure that potential sex-trafficking victims who are 
children are interviewed in an appropriate setting by skilled 
nonuniformed people so that we can get the truth of whether 
they're in fact a victim or whether they're not.
    When you've had a chance to take a look at that report, 
could we discuss this further?
    Secretary Johnson. I'm aware of the report and its 
conclusions. I haven't had a chance to carefully study it, but 
it is something that we will look at, yes, ma'am.
    Ms. Lofgren. Thank you. My time has expired, Mr. Chairman.
    Mr. Goodlatte. Chair thanks the gentlewoman.
    I recognize the gentleman from Virginia, Mr. Forbes, for 5 
minutes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Mr. Secretary, it's always good to see you. Thank you for 
being here.
    Secretary Johnson. Always good to see you too, Mr. Forbes.
    Mr. Forbes. At the opening of this hearing, the Ranking 
Member, for whom I have enormous respect, complimented the 
conservative leadership of the House for impacting and even 
slowing some of the policies of this Administration. I assumed 
he was talking about the policy of releasing terrorists from 
Guantanamo Bay or perhaps releasing criminals on our streets. 
And while I'm sure the leadership would be flattered, they'd be 
the first to say we still have a lot of work to do.
    He also mentioned that your job needs to be done humanely. 
You know, and we've talked about before, we have a huge gang 
problem in the country. It's a growing problem. And, in fact, 
if we took gang members in the United States today, they would 
equal the sixth-largest army in the world.
    So my question to you is this: Is it humane to leave 
individuals who are here illegally and who have been active 
participants in a criminal street gang, or who intentionally 
participated in an organized criminal gang, to remain in the 
United States?
    Secretary Johnson. Such an individual is among my top 
priorities for removal, sir.
    Mr. Forbes. Good. If that's the case, and that is indeed 
the memo that you mentioned, we had a little difficulty because 
3 months ago your Director of ICE, Sarah Saldana, did not have 
a clue when she was asked--and you can look at the testimony 
and the record--when we asked her how many criminal aliens with 
violent gangs has ICE and/or CBP processed and deported since 
DHS updated its policies, the policies you reference? How many 
has ICE or CBP released? And, third, what type of process is 
DHS using to determine who is a member of a criminal gang?
    So my first question to you is, can you give us today the 
number of criminal aliens with violent gang ties that ICE and/
or CBP has processed and deported since your policy was 
updated?
    Secretary Johnson. Well, that is a knowable number, which 
we can get to you for the record.
    Sitting here right now, I don't know the number, but it is 
a knowable number.
    Mr. Forbes. And here is the problem we have. This is one of 
your top priorities. The Director said she didn't have a clue. 
And today when we have a hearing to look at this, we don't have 
that number. So if you would get it back to us. But I would 
assume then that you also don't know how many ICE or CBP has 
released.
    Secretary Johnson. Again, it's a knowable number, sir. I 
just did not come prepared with the number. If I could have 
anticipated your question, I would have.
    Mr. Forbes. I would have just thought if it was one of your 
top priorities, that might have been a metric you would look to 
see if it was working. So let me ask you this third one----
    Secretary Johnson. It absolutely is one of my top 
priorities, sir.
    Mr. Forbes. But you just don't know whether it's working or 
not?
    Secretary Johnson. Like I said, it is a knowable number. I 
just don't have it with me.
    Mr. Forbes. But you don't know the knowable number.
    Secretary Johnson. I do know this. I have mandated as part 
of that same directive that we track who we remove----
    Mr. Forbes. Can I ask you this, because I don't have but 5 
minutes. What type of process are you using to doing that 
tracking that you've mandated? How do you know who is a member 
of a criminal gang? Do you ask them?
    Secretary Johnson. Well, in fact, we have tightened up the 
guidance so that we can more effectively identify----
    Mr. Forbes. Share with us, if you would, as a Committee how 
you've tightened it up. Do you ask the individuals if they are 
members of violent criminal gangs?
    Secretary Johnson. Well, if you're referring to applicants 
for deferred action, the answer is yes.
    Mr. Forbes. So your testimony today is that you ask every 
member who was an applicant whether they're a member of a 
violent criminal gang. Because that would be in conflict with 
what the Director said. So that is your testimony today?
    Secretary Johnson. My understanding is that when----
    Mr. Forbes. Let me just make sure. You're saying it is the 
policy, you're sure of that, or you don't know what the policy 
is?
    Secretary Johnson. I know that being a member of a criminal 
street gang is certainly a disqualifier.
    Mr. Forbes. I understand that, but if we don't know who 
they are, it doesn't help us. Can you state under oath today 
that you know that each one of those applicants are asked 
whether they're even a member of a violent criminal gang?
    Secretary Johnson. I believe the answer is yes, sir.
    Mr. Forbes. You believe it is. But you do not know?
    Secretary Johnson. Well----
    Mr. Forbes. Can you confirm that and get it back to us for 
the record?
    Secretary Johnson. Yes.
    Mr. Forbes. Do you know whether or not they're reviewing 
their criminal records, their trial records?
    Secretary Johnson. I'm sorry, what's the question?
    Mr. Forbes. Do you know whether the applicant's trial 
records are reviewed before a decision is made as to whether or 
not they will be released?
    Secretary Johnson. A trial record?
    Mr. Forbes. Yes, sir.
    Secretary Johnson. What's a trial record?
    Mr. Forbes. A trial order would be when they are going to 
court and they are prosecuted for a crime, there would be a 
record of that. And the reason it's important is because 
oftentimes it doesn't say on their conviction that they were a 
member of a violent criminal gang. Unless you're reviewing the 
records, you wouldn't have any way of knowing.
    I know, Mr. Chairman, my time is up, but----
    Secretary Johnson. I know what a criminal record is. I 
don't know if I've ever heard the term ``trial record.''
    Mr. Forbes. Well, let's use your word then, as criminal 
record, if you want to, but the problem with the criminal 
record is it doesn't always show all the details that were in 
the trial. And if you don't know that, you won't know whether 
when they plead they were actually a member of a violent 
criminal gang or not.
    Mr. Chairman, with that I yield back.
    Very concerning that you have a major priority and we don't 
even know the metrics as to whether or not it's working or not.
    Thank you, Mr. Chairman.
    Secretary Johnson. Well, that would be a 
mischaracterization of what I said, sir.
    Mr. Goodlatte. The time of the gentleman has expired.
    And the Chair recognizes the gentlewoman from Texas, Ms. 
Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Let me thank you very much.
    Mr. Secretary, thank you for your testimony.
    To my colleagues, I think I've said this before, that I 
have sat on the Homeland Security Committee since 9/11, the 
tragedy of 9/11. I think it is important to note that Secretary 
Johnson has made incredible advances in securing this Nation. 
And I always say, when we are apt to criticize the 
Transportation Security Administration and other agencies 
within Homeland Security, that we have faced challenges, but 
America has been made safer and more secure with the creation 
of this Department.
    In particular, let me thank Secretary Johnson for noting 
the decrease in the surge of unaccompanied children. But as 
well, when a group of us went to visit Karnes and Dilley in San 
Antonio and viewed circumstances that were unacceptable to us, 
viewing children and mothers, that the Department was 
responsive. And we appreciate the decrease in population 
legally of mothers and children dealing with the unaccompanied 
circumstances.
    I think it is important to take note that this is a huge 
challenge in securing this Nation. And so allow me to quickly--
and, Mr. Secretary, if you would just say yes or no--the 
reasons, because I want to get to my real questions. But I just 
want to say the PEP program that you have announced, would that 
have been a sizeable intervention for the sheriff's department 
and other sanctuary cities to be able to respond to a 
circumstance like Mr. Sanchez? Does this give them a greater 
latitude and remain their sanctuary city----
    Secretary Johnson. Yes.
    Ms. Jackson Lee [continuing]. Status?
    Secretary Johnson. Yes.
    Ms. Jackson Lee. And let me just say for my colleagues, a 
sanctuary city is not the choosing of the Secretary of Homeland 
Security, it is states' rights. It is individual cities making 
their determination.
    I would offer to say and ask unanimous consent to put into 
the record, and might I do this so my colleagues know with my 
deepest sympathy to that family, and I personally apologize to 
the family for this tragedy that has occurred in San Francisco, 
none of us would want to counter that or to support that or to 
be supporters of comprehensive immigration reform and support 
that violent act.
    But I do think it's important to note that murders in San 
Francisco, for example, compared to cities of Indianapolis and 
Dallas of the same size, those murders are at 5.75 and 
Indianapolis at 15.17 and 11.39. Over the years, the homicides 
in San Francisco have gone down.
    I don't necessarily want to condemn sanctuary cities, but I 
do want to condemn the idea of communication. And I want to 
join with Mayor Ed Lee who said: Could somebody simply pick up 
the phone?
    I'm looking at an order of activities here, and I see that 
ICE sent a detainer on 3/27/2015. And my question to the law 
enforcement of that city, it would not negate the sanctuary 
city authority to have simply picked up the phone and called 
ICE to be able to say: This individual who has a long criminal 
history is in our facilities.
    Mr. Secretary, was that a possibility, in light of this 
horrible tragedy, that we don't diminish, could that have been 
a phone conversation to ICE at that time from the sheriff's 
department and not violate their sanctuary city rules per se?
    Secretary Johnson. My strong intent with the new PEP 
program is that we have the type of cooperative relationship 
with local law enforcement such that we get notification before 
somebody is released----
    Ms. Jackson Lee. Right. But they could have also----
    Secretary Johnson [continuing]. So that we get there in 
time to pick them up when they are released.
    Ms. Jackson Lee. And they could have also made a call at 
that time as well.
    Secretary Johnson. Yes.
    Ms. Jackson Lee. I won't get into warrants and order, but 
they could have made a call.
    Let me move quickly to this issue of violent extremism and 
just cite for you an article from The New York Times that made 
it clear that since 9/11 there were 19 non-Muslim extremist 
attacks versus 7 Islamic militant attacks. And we all know that 
we are concerned about ISIL and a cell in every state. But I am 
concerned as well about Homeland Security looking at violent 
extremism that are dealing with antigovernment feeling or 
racist feelings.
    I have every respect for opinion and speech that expresses 
hatred toward me because I'm an African American, but not 
violence, as evidenced by Mother Emanuel.
    Can you explain what you will be doing about capturing 
those who are engaged in violent, antigovernment activities, 
and, of course, racial violence that is rising as a perspective 
of domestic terrorism?
    Secretary Johnson. Well, of course, there's always the law 
enforcement approach to hate crime, to violence. Our CVE 
efforts across the Department should be comprehensive, in my 
view. I have personally spent a lot of time on CVE engagements, 
as you know. We attended one together in Houston about a month 
ago.
    At the moment, my priority has been focusing on communities 
that I believe are most vulnerable, at least some members of 
the community, to appeals from ISIL, al-Qaeda, and other 
terrorist groups overseas who are actively targeting 
individuals in these communities. And so I think we need to 
focus on communities that themselves have the ability to 
influence somebody who may be turning in the direction of 
violence.
    Without a doubt, there is the potential, the very real 
potential of domestic acts of terrorism. I just went to 
Oklahoma City for the 20th anniversary of the bombing there in 
April. A program that counters domestic violent extremism, 
domestic-based violent extremism, is in my judgment a little 
more complicated.
    The terrorist threat to the homeland from overseas that I'm 
concerned about is one that is making active efforts to recruit 
people in response to ISIL's recruitment efforts. And so we've 
been, as you know, very focused on that. But I do agree with 
the spirit of your question that violent extremism in this 
country can exist in a lot of different forms, ma'am.
    Ms. Jackson Lee. Let me thank you.
    Mr. Chairman, may I ask unanimous consent to include these 
two documents in the record? And may I just put one sentence on 
the record--I thank you for your indulgence--is, Mr. Secretary, 
I implore you to consider domestic terrorism. And I'd like to 
work with the Department to seriously add that to its broad 
agenda. I think it would be a vital and important step forward. 
And let me thank you for your service.
    Mr. Goodlatte. The time of the gentlewoman has expired. 
That was a long run-on sentence, but we will allow it. And 
those two documents will be made a part of the record.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                  
                     __________
    Mr. Goodlatte. And the Chair now recognizes the gentleman 
from Iowa, Mr. King.
    Mr. King. Thank you, Mr. Chairman. I appreciate this 
hearing.
    Mr. Secretary, I appreciate also your testimony here.
    But listening to the testimony about ICE detainers--and I 
want to pause for a minute here.
    Can I have a clear path? Thank you.
    Listening for the moment about ICE detainers, this first 
question occurs to me, and that is that, how long have we been 
operating under ICE detainers when they were mandatory? Do you 
know when their inception was?
    Secretary Johnson. ICE detainers go back a long way. They 
go back----
    Mr. King. 1996?
    Secretary Johnson. When I was a Federal prosecutor 25 years 
ago, we had immigration detainers.
    Mr. King. Okay. So they were mandatory for a long time. And 
how long has this been a problem? In your testimony you said 
that in the last year 12,000 ICE detainers were ignored or not 
responded to by local law enforcement, 12,000. Is that 
indicative of a problem we've had over a 20-year period of time 
or is that a short-term anomaly?
    Secretary Johnson. I think that that number has been 
growing with the number of jurisdictions that have been passing 
ordinances and laws and signing executive orders that limited 
their ability to cooperate with us. So I suspect the number has 
been growing annually, sir.
    Mr. King. Would it be perhaps in sync with a 2012 ACLU 
``fact sheet'' that was sent to local law enforcement 
nationwide that said that ICE detainers are not mandatory 
because no penalty existed, and they have this legal rationale, 
reach, if there is no penalty then there is no law to be 
enforced? Are you familiar with that?
    Secretary Johnson. I'm not familiar with that fact sheet, 
sir, no.
    Mr. King. Okay. And I would make sure you'll get a copy of 
that so you are. But February 25, 2014, so can you tell me if 
that's about the date that the number of local jurisdictions 
ignoring the detainers began to accelerate?
    Secretary Johnson. I do not know the answer to that 
question, sir.
    Mr. King. But we do know that the Department has cooperated 
to some degree with ICE--or, excuse me, with ACLU. And I'm 
looking at a letter that was sent to a Member of Congress, 
Member of this Committee, dated February 25, 2014, from U.S. 
Immigration, it's from ICE. It says: ``While immigration 
detainers are an important part of ICE's effort to remove 
criminal aliens who are in Federal, state, and local custody, 
they are not mandatory as a matter of law.''
    The Congress was informed February 25 that ICE and your 
Department was going to back away from detainers. And I'm 
listening to ICE spokesmen tell the people that are trying to 
enforce the law in San Francisco that's it's all their 
sanctuary city policy, not a policy that has to do with ICE's 
decisions.
    So I'd just raise this as a point that there are a whole 
series of jurisdictions that are culpable here. And I want to 
ask, have you sat down or do you have people in your Department 
that have sat down and calculated the resources necessary to 
enforce all of the law? And I would express that in synch with 
Rudy Giuliani's former policy in New York, the broken windows 
policy, we arrest people that break the law as quickly as we 
can and enforce the law so that there is an expectation that 
it's a deterrent.
    To get to that point, to restore the respect for 
immigration law, which has been damaged perhaps--I still 
believe we can repair it--what would the calculation be for the 
resources necessary to accomplish such a thing?
    Secretary Johnson. Congressman, you refer to restoring 
respect for immigration law----
    Mr. King. Let's just call it full enforcement, then, so I 
don't run out of time.
    Secretary Johnson. That's exactly what I'm trying to do 
with our new Priority Enforcement Program.
    Mr. King. And what resources do you need then to do that? 
You've got more beds than you're using. You've increased the 
number of officers. We've got significantly fewer arrests 
taking place. That doesn't convince me that there are fewer 
border crossings. I mean, if the order were issued to arrest 
half the people you were, that would be all that it would take 
to see those numbers go down. It's never been indicative to me 
of lower border crossings.
    Secretary Johnson. Well, I'm glad you asked that question, 
what resources do we need? I would like to see our immigration 
enforcement personnel put on a pay scale with other law 
enforcement personnel. As you probably know, a lot of them are 
topped out at GS-9. One of our executive actions was to have 
pay reform for immigration enforcement personnel.
    Mr. King. I'm happy to take that conversation up, as I do 
believe that we ought to be as supportive as we can of 
especially the people that put their lives on the line. But 
they want to also do their job, and I want to make sure we have 
the foundation to get that done. And when you were asked the 
length of the fence, how long is the border, the southern 
border?
    Secretary Johnson. How long is the southern border?
    Mr. King. Yes.
    Secretary Johnson. I believe it's 2,700 miles, sir.
    Mr. King. I brought that up because I want to give you an 
opportunity to state that. It's actually very close to 2,000 
miles. The estimates run just a little bit under that.
    But I bring this up because I think it's important for this 
Committee and for you and the public to consider what we're 
doing. We're spending $13 billion on our southern border to 
secure our border. That's the 50-mile line when you add 
everything up. I don't know anybody else that even tracks that 
number. That comes out to be a little less than $6.6 million a 
mile.
    Now, that might not be astonishing unless you think that 
about 25 percent of those that are attempting to cross the 
border actually are interdicted, and many of them are released 
again, maybe for five times. Actually 27 times is the highest 
number that I see.
    We're building interstate highway across expensive Iowa 
cornfields for $4 million a mile. That's two fences. That's 
grading, paving, shouldering, and signage and all the things 
necessary, plus archeological and environmental. If we can 
build interstate highway for $4 million a mile, we could take a 
third of that budget down there. In a matter of 2 years we'd 
have that whole thing, a fence, a wall and a fence. We would 
have patrol roads in between two no-man's land zones.
    And, by the way, if we do that, these fences don't have 
prosecutorial discretion. They will be effective. The Israelis' 
is up to at least 99-point-something percent effective. They 
put $1.8 million a mile in theirs. They had 14,000 illegal 
crossings. In one section it cut it to 40.
    And so I think there's an economic equation that your 
Department could bring forward. And I'd very happy to sit down 
and go through the numbers, I spent my life in the contracting 
business, and I think that we could put a lot better 
application to these resources than are being used today.
    And I thank you for your testimony.
    And I yield back the balance of my time.
    Mr. Goodlatte. The time of the gentleman has expired.
    The gentleman from Tennessee, Mr. Cohen, is recognized for 
5 minutes.
    Mr. Cohen. Thank you, Mr. Chair.
    And first I'd like to recognize and say hello to Mr. 
Johnson, who is from the other great city in Tennessee, which 
has the second-best barbecue, but the greatest HBCU in the 
country in Fisk, where his father was actively involved.
    I want to follow up on Ms. Jackson Lee's questions. We need 
to be concerned about threats from afar and recruitment of our 
people from afar in ISIS. But the fact is we've got more of a 
threat domestically to our lives than we do internationally.
    An article in The New York Times just this past year, June 
16, just this past month, cites the fact that since 9/11 an 
average of nine American Muslims per year have been involved in 
an average of six terrorism-related plots against targets in 
the U.S. Most were disrupted. But the 20 plots that were 
carried out accounted for 50 fatalities over the past 13\1/2\ 
years.
    In contrast, right-wing extremists averaged 337 attacks per 
year in the decade after 9/11, causing 254 fatalities, over 5 
times as many as the Muslim-caused facilities. This was 
according to a study by a professor at the United States 
Military Academy's Combating Terrorism Center. And that total 
has increased since the study was released in 2012.
    So I ask you about our efforts to curtail domestic right-
wing extremists. I believe that in 2011, it might have been a 
department, that funding was cut or even abolished. And is 
there any consideration that you've given to increasing funding 
and/or renewing that department? I think the Department of 
Homeland Security in 2009, the Department disbanded the 
Extremism and Radicalization Branch of the Homeland Environment 
Threat Analysis Division. Do you think it would be appropriate 
to have that division recreated or reinstated?
    Secretary Johnson. Congressman, if you don't mind, let me 
answer it this way. We fund over $2 billion a year in grants to 
state and local law enforcement for homeland security/public 
safety purposes of a lot of different stripes. So the first 
responder equipment that we fund is valuable whether it's a 
terrorist attack, a mass shooting incident, motivated by 
whatever purpose.
    So, for example, the Boston Marathon attack, which is very 
definitely an act of terrorism, the first responders there were 
funded, to a very large measure, by my Department, even though 
they were local.
    And so our grant money goes to a lot of valuable things to 
promote public safety. We have active shooter training, for 
example.
    Mr. Cohen. I understand that and appreciate that, sir. But 
what I'm asking about is the Department had a department called 
the Extremism and Radicalization Branch of the Homeland 
Environment Threat Analysis Division, and apparently that 
division was not reinstated. That's different than grants. 
That's something specifically looking at the Internet and 
seeing if they can't ferret out some of these folks before they 
get their weapon and go to a church and commit a mass atrocity.
    Have you considered reinstating such a division in light of 
the fact that the statistics are overwhelming that they are 
continuing to threaten our people?
    Secretary Johnson. Well, I agree with the spirit of your 
question when it comes to the statistics. I would have to look 
into your specific question, sir.
    Mr. Cohen. I'd appreciate if you would.
    After Charleston, the Union of Orthodox Jewish 
Congregations of America noted that we need, as everybody I 
think would agree, freedom of worship, we need freedom from 
fear. Houses of worship need to be safe. The national security 
grant program provides grants to communities to buy 
surveillance equipment and shatterproof windows. Much of that 
goes and has been going and I'm pleased it has been going to 
Jewish organizations and synagogues which have been targeted 
over the years with threats.
    But now that we see in the South in particular, and we've 
seen it over the years, but a rash recently of attacks on 
African American churches, can your Department look into 
requesting an increase in funding so that it can cover African 
American churches that are also threatened in this day and 
time?
    Secretary Johnson. We can, sir. I just met with officials 
of the American Jewish Committee last week who are very 
complimentary of the relationship that we have with the Jewish 
community in this regard.
    And as I think I mentioned to you, Congressman, my great 
grandfather was a Baptist preacher in southwest Virginia near 
Roanoke in a little town on the Virginia-Tennessee line called 
Bristol. And back in the turn of the century 115 years ago, a 
lot of that--being a Baptist preacher in that part of the world 
meant breaking up the occasional lynching attempt. So I 
appreciate the importance of your question, sir.
    Mr. Cohen. And I appreciate your service. Thank you, sir.
    I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Arizona, Mr. King, for 5 
minutes--I mean, Mr. Franks for 5 minutes.
    Mr. Franks. You've insulted both of us, Mr. Chairman. Thank 
you, sir.
    Secretary Johnson, a report from the National Academy of 
Sciences places ``an estimate of $1 trillion to $2 trillion 
during the first year alone for the societal and economic costs 
of a 'severe geomagnetic storm scenario' with recovery times of 
4 to 10 years.'' Another report, from Lloyds of London, stated 
that between 20 million and 40 million people in America are at 
risk of extended outages for up to 1 to 2 years in duration. 
And I can read you excerpts of 11 major government reports that 
all share very similar findings for hours here, as you know. 
And yet the Federal Government has really done next to nothing 
to help protect the electric grid.
    And so I just would remind you that year you testified that 
it was the main responsibility of the National Programs and 
Protections Directorate, or the NPPD, within Department of 
Homeland Security, along with other, of course, relevant 
agencies, to protect the electric grid. So I'd like to ask you 
what is being done today at DHS to protect the grid from 
geomagnetic disturbance or from weaponized electromagnetic 
pulse, and do you support legislative efforts like the Critical 
Infrastructure Protection Act that has now come out of the 
Homeland Security Committee to actually focus on this threat 
and act upon it?
    Secretary Johnson. In general, sir, I'm very supportive of 
the efforts being made. I know that the threat that you 
mentioned is one that we study and evaluate. I'm happy to get 
back to you more specifically for the record in answer to what 
detailed steps we are taking and how we regard this particular 
threat, sir.
    Mr. Franks. Well, I appreciate that. I hope that you would 
take a special look at the Critical Infrastructure Protection 
Act. It's going to be entirely within your purview to respond 
to it. And I think it's something you'll probably support.
    I sort of changed the subject there, but I have to get back 
to the subject now of the Constitution. I have the privilege 
here of chairing the Constitution Subcommittee, and so that's 
part of the predicate.
    Article I, Section 8, clause 4 of the Constitution--
provides that the Congress shall have power to ``establish an 
uniform Rule of Naturalization,'' and grants Congress plenary 
power over immigration policies. That's very, very, very clear.
    Aren't your administrative actions and your agency's 
administrative actions to exempt millions of unlawful and 
criminal aliens from any threat of enforcement of our 
immigration laws a usurpation of Congress' constitutional role?
    Secretary Johnson. Inherent in the enforcement of any law, 
sir, is the exercise of prosecutorial discretion, and that's 
what we do in the enforcement of our laws, that's what the 
Department of Justice does, and that's what multiple other 
agencies do.
    Mr. Franks. Well, in all due deference to you, 
prosecutorial discretion is one thing, the suspension of the 
law is another.
    And I will probably leave it right there, Mr. Chairman.
    Mr. Goodlatte. The Chair thanks the gentleman.
    I recognize the gentleman from Georgia, Mr. Johnson, for 5 
minutes.
    Mr. Johnson of Georgia. Thank you, Mr. Chairman.
    This is a hearing where Republicans are arguing that the 
Administration is not enforcing the immigration laws and that 
this is leading to increased crime.
    Exhibit A, the murder of Ms. Steinle in San Francisco. And 
that event happened within the last 2 weeks. And I am really 
impressed with the speed by which this Committee has sprung 
into action to bring this issue before a hearing, you know, I 
mean, and then going to take advantage of it for political 
purposes is basically what's happening.
    However, something like the flying of Confederate battle 
flags in national park space is something that is salient, 
germane, and current. They want to put that off to a Committee 
for a study or for a hearing that will never be held.
    So it's politics what we're playing up here, Secretary 
Johnson. I appreciate your service, by the way. What we have is 
a situation where Ms. Steinle was allegedly murdered by Mr. 
Juan Francisco Lopez Sanchez, who had been in Federal custody 
for about 6 years on a felony illegal entry into the U.S. ICE 
had a hold on him, so that when he was released from the Bureau 
of Prisons he would go into ICE custody for deportation again.
    However, ICE also has a policy that when a local 
jurisdiction has an active warrant against an individual, then 
ICE yields to that local authority holding that warrant. And 
that local authority, San Francisco County in this case, 
decided to pursue its warrant. So it took custody of Mr. 
Sanchez, Mr. Lopez Sanchez, and after they took custody of him, 
ICE had a warrant or a detainer lodged against Mr. Lopez 
Sanchez so that when San Francisco finished its prosecution, 
then it would turn Mr. Lopez Sanchez back over to ICE for 
deportation.
    And then what happened was, after Mr. Lopez Sanchez was in 
the custody of San Francisco County, the authorities there 
decided not to prosecute him, which meant that he was eligible 
for release, and ideally it would have been to ICE which had 
the detainer in place. However, due to its local politics, San 
Francisco County had a situation, a sanctuary policy, where 
they did not honor those warrants.
    So I go through that to say that it was not the fault of 
ICE, or it was not a breakdown in Federal immigration 
enforcement that resulted--that resulted in Kathryn Steinle's 
murder allegedly by Mr. Lopez Sanchez. It was not the fault of 
your Department, although they're trying to make it appear to 
be that way.
    And in fact, under this President, there have been--this 
President is now known as the Deporter in Chief. Why is that, 
Mr. Johnson? Is it because over 2 million people have been 
deported under his Presidency, which is more than were deported 
under the previous Administration in 8 years with 17 months 
left on this term? Is that the reason why he's known as the 
Deporter in Chief?
    Secretary Johnson. Well, let me answer your question. Let 
me answer--let me say two things, sir. One, as I have 
mentioned, I believe it is important that we focus our 
deportation resources on threats to public safety. And with our 
new policy, I believe we are doing that increasingly so.
    A higher percentage of those in immigration detention today 
than used to be the case are those who are in my top two 
priorities for removal. Seventy-six percent of those in 
immigration detention today are in my top priority for removal, 
the felons, those apprehended at the border. So I want to focus 
our resources on threats to public safety, and I know the 
President supports that and he shares that view.
    The other thing I'll say in response to your question, sir, 
is, as I mentioned earlier, I think we need to evaluate 
carefully whether it is appropriate in every case for a 
criminal warrant to be a priority over an immigration detainer.
    Mr. Johnson of Georgia. I agree.
    Secretary Johnson. It may not be. There may need to be some 
additional flexibility and discretion built into that. So I 
want to evaluate any such policy.
    Mr. Johnson of Georgia. Thank you. And I yield back.
    Mr. Gowdy [presiding]. The gentleman yields back.
    The Chair would now recognize the gentleman from Ohio, Mr. 
Jordan.
    Mr. Jordan. Thank the Chairman.
    Secretary Johnson, on November 20, 2014, the President 
issued his now somewhat famous executive order. You did a memo 
regarding DACA and deferred action. You recall all that, Mr. 
Johnson?
    Secretary Johnson. Yes, sir.
    Mr. Jordan. All right. And then February 16 of this year, 
Judge Hanen has a ruling that blocks the action of the 
President and the action outlined in your memo, correct?
    Secretary Johnson. Yes, sir.
    Mr. Jordan. And during the hearing in front of Mr. Hanen, 
Judge Hanen's court, January 15, 2015, your counsel represented 
to the court, ``No applications for revised DACA would be 
accepted until the 18th of February 2015.'' Is that correct, 
Mr. Johnson?
    Secretary Johnson. I don't know exactly what the colloquy 
was, sir.
    Mr. Jordan. Okay. This is from your counsel and from the 
court. But regardless of what it was, the representation that 
no applications would be--for revised DACA--would be accepted 
until the 18th of February, that turned out to be wrong. Is 
that accurate, Mr. Johnson?
    Secretary Johnson. Well, in fact----
    Mr. Jordan. That representation that was made in front of 
the court was not accurate.
    Secretary Johnson. Like I said, I don't know the exact 
colloquy. I do know that in November we began issuing 3-year 
renewals consistent with the policy. It was on the face of the 
policy and it was in the----
    Mr. Jordan. Well, let me read what Judge Hanen said, 
because your counsel actually filed an advisory with the court 
clarifying, saying that even though you said you would not 
accept applications and they would be not be revised, they in 
fact were up to 100,000. And here's what the advisory--you 
advised the court, and here's what the judge said.
    ``The court expects all parties, including the Government 
of the United States, to act in a forthright manner and not 
hide behind deceptive representations and half-truths. That is 
why the court is extremely troubled by the multiple 
representations made by the government's counsel, both in 
writing and orally, that no action would be taken pursuant to 
the 2014 DHS directive until February 18, 2015.''
    So here's what I want to understand. You said you weren't 
going to issue, but you had already issued 100,000 3-year 
deferrals. You had to go tell the court: Oh, what we told you 
in the earlier hearing wasn't in fact true. When did you know 
as the head of this agency, the head of this Department, that 
the representation made to Judge Hanen and to the court was in 
fact not accurate?
    Secretary Johnson. Well, I definitely know that this is an 
issue for the judge that he is very troubled by.
    Mr. Jordan. That's not my question. When did you know what 
you had told the court--your counsel had told the court, when 
did you personally know as the head of the agency that it 
wasn't accurate? Did you know when they said it? Did you know 
clear back in January when they had the hearing that what they 
were conveying to the court wasn't true?
    Secretary Johnson. No, I did not know when they said it 
because I was not----
    Mr. Jordan. Okay. So when did you learn?
    Secretary Johnson. Sometime around--sometime shortly--I 
don't have the exact timeframe, but sometime in early March I 
became aware that this was an issue and wanted to----
    Mr. Jordan. And who told you?
    Secretary Johnson. I don't recall, sir. And wanted to be 
sure that we promptly advised the court of this issue and we 
did.
    I will say also that the fact that we began issuing 3-year 
renewals was on the face of the policy, which was in the record 
of the court. I know this is an issue, I know the judge is 
troubled by it but----
    Mr. Jordan. He's not troubled by it. He said it was half-
truths, deceptive representation. He's extremely troubled by 
it, and that's his words, not mine. So when a judge says that, 
that you falsely represented something in front of the court, 
you later learn you did that, according to what you just told 
me, and then you convey it to them, I want to know when exactly 
you learned and how long after you learned did you convey to it 
the court. Do you know that?
    Secretary Johnson. I've already answered that question.
    Mr. Jordan. No, no. But when you learned, did you convey it 
that very day? Did you wait a couple days? When did you convey 
it?
    Secretary Johnson. I don't know how many days it was. Could 
have been same day, could have been 2 days. I don't know, sir.
    Mr. Jordan. Do you know what day you happened to advise the 
court that you in fact had misrepresented the facts to the 
court? Do you know what day you had sent that advisory? Do you 
know that date?
    Secretary Johnson. I don't know when the advisory was 
filed. I do know----
    Mr. Jordan. March 3, 2015.
    Secretary Johnson. I was going to say, I do know that it 
was in early March.
    Mr. Jordan. Okay. Do you know what else happened on March 
3, 2015?
    Secretary Johnson. A lot of things, sir.
    Mr. Jordan. Well, relative to your agency, do you know what 
happened that day?
    Secretary Johnson. Refresh my recollection.
    Mr. Jordan. Same day we were having a little debate in 
Congress about the funding bill for your agency. So the same 
day that the DHS funding bill passes Congress is the same day 
you decide to tell the court: Oh, by the way, we lied to you 
back when we didn't give you all the facts earlier on.
    Now, don't you think it would have been nice if the 
Congress during that heated debate--in fact, I remember you, 
Secretary, you were on TV that entire weekend, that March 1 to 
March 2, that entire weekend, you were talking about if this 
bill doesn't get done, if we don't get funding----
    Secretary Johnson. You have your----
    Mr. Jordan. No, no, hang on. Sky's going to fall, world. It 
would have been nice if you'd have also told the Congress and 
the American people: Oh, by the way, we misrepresented the 
facts to the court dealing with this issue. But you send the 
advisory the same day--the same day that we pass the bill? Be 
nice if we'd have had that information before the date we 
actually voted on this and went on record.
    Secretary Johnson. There are so many things wrong with that 
question. I do not have 37 seconds to answer it.
    Mr. Jordan. Well, let me ask--let me just--Mr. Chairman, if 
I could real quick.
    Secretary Johnson. There are so many things wrong in the 
question.
    Mr. Jordan. March 3 you filed the advisory, right? March 3 
you filed the advisory. March 3, the DHS bill passes. Those are 
two facts. That just a coincidence?
    Mr. Gowdy. Gentleman's out of time, but I'm going to allow 
the Secretary to answer the question.
    Secretary Johnson. First of all, my recollection is that I 
was on the Sunday shows earlier in the month of February. So 
that doesn't work, okay? Second----
    Mr. Jordan. That's why I'd like to know when you found out.
    Secretary Johnson. I don't recall when exactly in the 
course of the day, sir, the funding bill was passed. And I 
really don't think one has anything to do with the other. I 
knew this was an issue. I found out about it in early March. 
And I wanted the court to be----
    Mr. Jordan. It was important enough to advise the court. It 
might have been important enough to let Congress know in the 
heat of that debate when this is the central issue of that 
debate that, oh, by the way, our counsel didn't represent the 
facts to the court like they should have. That's an important 
element for this body, the Congress of the United States, and 
the American people to know in the course of that fundamental 
debate we were having, and you don't think it's important to 
know that?
    Mr. Gowdy. The gentleman really is out of time this time, 
and I'm going to allow you to respond, and then I need to go to 
Ms. Chu from California.
    Secretary Johnson. I do not believe one has anything to do 
with the other. I do not recall whether Congress voted for our 
funding on March 3 or March 4. I tend to think, but I don't 
have the calendar in front of me, that it was on March 4.
    So that is my recollection. I was intensely interested, 
obviously, in the debate going on in this Congress about 
funding our Department so that I wasn't going to have to 
furlough a whole lot of people. So my recollection is that it 
passed the Congress on March 4, but I could be wrong. But I 
don't have a calendar in front of me.
    Mr. Gowdy. The gentleman from Ohio yields back.
    The Chair would now recognize the gentlelady from 
California, Ms. Chu.
    Ms. Chu. Yes, Secretary Johnson, I was one of the eight 
Congress Members that visited the Dilley and Karnes Family 
Detention Center, and I was horrified by the situation. And I 
thank you for reevaluating DHS' family detention policy and 
your announcement yesterday that ICE will generally not detain 
families if they've received a positive finding for credible or 
reasonable fear. It's a huge step forward and I hope it'll 
bring our policies in line with our international obligation to 
protect those that are fleeing persecution.
    The families that I spoke with when I was there were not 
criminals. They were victims escaping extreme violence. I heard 
from a mother from Honduras whose son and daughter were forced 
into the drug cartels. She was raped, as well as her 15-year-
old daughter. She and her daughter escaped but ended up in the 
detention facilities for months.
    The mother had a credible fear determination, but then she 
was given a $10,000 bond obligation, which made her desperate 
because she couldn't afford it, and it might as well have been 
$1 million because it was unattainable. And then her daughter, 
in reaction to the desperation, had to be taken to the medical 
unit for wanting to commit suicide.
    It's my hope that DHS' new policy means that families like 
these will no longer be detained and no longer subject to such 
unreasonable bonds. So, Secretary Johnson, could you describe 
how the agency will implement this new policy, and how long do 
you expect the review to take?
    Secretary Johnson. Well, much of the reforms that we 
announced and that I directed are underway already. In terms of 
the review of the cases, the older cases, that review has 
already been undertaken, and it has produced results.
    In terms of the new bond policy, I believe also that that 
policy has in fact been implemented and is underway. The review 
that Director Saldana directed of the facilities themselves, 
the advisory committee, I would have to get back to you in 
terms of the exact status of that.
    Thank you also for visiting the facility, and thank you for 
meeting with me after you did so.
    Ms. Chu. Thank you. In fact, I wanted to get more clarity 
on the bonds for the families. Will ICE continue using bonds 
for these families? And how will you work to ensure that these 
bonds remain reasonable for them?
    Secretary Johnson. Well, I've directed that they be 
realistic and be reasonable. And I have asked that I receive 
regular reports on what the bond levels are. And I know that 
ICE is developing, if they haven't already developed criteria 
for setting bonds at a consistent and affordable rate.
    When I was at one of these facilities, I was struck by the 
number of people who were there who had a bond set, but they 
were not able to produce the cash. And so this is one of the 
things that I want to be sure we set at a realistic rate.
    Ms. Chu. I also wanted to ask about a different detention 
center, that's Adelanto Detention Center in California. There 
have been numerous reports documenting inadequate care for the 
detainees.
    This facility is run by a private company, GEO Group. And 
we know that GEO's failure to provide adequate medical care 
resulted in the death of at least one detainee, Mr. Fernando 
Dominguez, who was detained for 5 years and died of intestinal 
cancer several days after he was rushed to the hospital with 
unusual bleeding.
    Now, this facility has recently been expanded by 640 beds, 
and it's of concern, considering the history of medical 
neglect. So, Mr. Secretary, what is ICE doing to ensure that 
the private companies that it contracts with provides adequate 
medical care and abides by the ICE Performance-Based National 
Detention Standards?
    Secretary Johnson. This is a priority of mine. It's a focus 
of mine. And I believe it is a priority and a focus of Director 
Saldana. I've heard concerns raised about private contractors 
running detention facilities, and I want to be sure that we get 
this right both with respect to the conditions and with respect 
to clarity about lines of authority and responsibility.
    So when you have a private contractor in the mix, whose 
responsibility is it day-to-day to ensure the conditions of 
confinement? And so it's something that we're looking into and 
it's something I'm very interested in.
    Ms. Chu. Thank you. And I yield back.
    Mr. Gowdy. Gentlelady yields back.
    The Chair will now recognize the gentleman from 
Pennsylvania, former U.S. Attorney, Mr. Marino.
    Mr. Marino. Thank you, Chairman.
    Good afternoon.
    Secretary Johnson. Good afternoon.
    Mr. Marino. Mr. Secretary, I first, as a former U.S. 
Attorney, realize the complications involved with dealing all 
kinds of local law enforcement entities. It can be quite 
chaotic. However, I am disappointed with the Administration in 
the way it is not, I think, directly handling sanctuary cities. 
I think the Administration can have a much more direct impact 
by being aggressive, as it has in other areas, to force 
sanctuary cities to be in contact with ICE.
    I've worked with ICE for a great deal of time. I think they 
are some of the best agents that we have in the Federal system. 
And I do agree with your position on the pay. But I put most of 
the blame on sanctuary cities at this point, however, I put 
part of the blame on Homeland because of the void between the 
detainer and a warrant. Now, I know in some situations a 
warrant may not be applicable.
    But give me some insight on how you see or what directive 
you can give to sanctuary cities in particular of letting ICE 
know when an illegal individual, an illegal person that is in 
this country is being released from any facility. Do you have 
anything on mind at this point?
    Secretary Johnson. Well, if it's somebody that we want for 
detention purposes, for removal purposes, my hope is that they 
not be released, period. I honestly believe the most effective 
way to go about getting at undocumented criminals in local 
jails is through a cooperative, constructive effort without----
    Mr. Marino. I'm sorry to interrupt. I only have a little 
bit. But that isn't working. So I think you have the authority, 
I think that you need to take the tough position to say--hand 
out a directive: You will respond to us. And if you need 
something done legislatively, come back to us. With all due 
respect, sir, I think that the Administration is avoiding this 
because of its propensity to want amnesty the way that it does. 
But that's a matter for another day. But if you want to respond 
to that, please.
    Secretary Johnson. The problem, if I may, is for a long 
time we did take the position that detainers were mandatory, 
and that was leading to a lot of litigation in the courts----
    Mr. Marino. Right. I'm aware of that, sir.
    Secretary Johnson [continuing]. We were losing. We were 
losing for reasons of the Due Process Clause of the 
Constitution.
    Mr. Marino. So maybe you need us to help out a little bit.
    Secretary Johnson. Frankly, we were losing with a lot of 
these jurisdictions who were passing all these laws saying: 
Thou shalt not cooperate with ICE.
    Mr. Marino. I understand that.
    Secretary Johnson. And that led to a real public safety 
problem, in my view, which I think we are correcting now.
    Mr. Marino. Well, if any time you think that you need the 
legislation to help you in that direction, please contact us.
    I want to switch to another situation here, particularly in 
my district, but it's happening across the U.S. Last year the 
U.S. Sentencing Commission promulgated an amendment to the 
Federal Sentencing Guidelines, Amendment 782, which reduced the 
base offense level for all drug trafficking by two levels. The 
amendment was also made retroactive, and as a result, more than 
10,000 drug trafficking offenders will be released early from 
prison beginning on November 1 of this year.
    And I have in front of me--this pertains to the Middle 
District--there'll be 68 people released between November 1, 
2015, and December 31, 2016, and many more after 2016. And as a 
State gets closer to the border, those numbers increase, 
because on my list of 68 people there are about 20 percent, 19 
of them, are from outside the country. Now, this list doesn't 
tell me whether they're illegals or not.
    But I would ask if you could take a look at this, pay 
attention to particularly the list of people that are from 
outside the country to see if they are violent illegals. And 
that's probably another way that we could stop a great deal of 
what has been taking place, particularly what has happened over 
the last 2 weeks, and my condolences do go out to that family. 
Would you please respond?
    Secretary Johnson. Yes. I'm aware of this issue. I'm aware 
of the adjustment to the Federal Sentencing Guidelines. I'm 
aware that a number of individuals will be released as a 
result. I'm aware that a number of them are probably 
undocumented, and we've been working with DOJ to do the most 
effective thing for public safety in that regard, and we will 
continue to do so, sir.
    Mr. Marino. I appreciate that, and I yield back the 1 
second of my time.
    Mr. Gowdy. Gentleman yields back.
    The Chair will now recognize the former attorney general 
from Puerto Rico, Mr. Pierluisi.
    Mr. Pierluisi. Thank you, Chairman.
    Secretary Johnson, welcome back to the Committee.
    Secretary Johnson. Thank you.
    Mr. Pierluisi. When you testified here last May, we spoke 
about drug-related violence in Puerto Rico, the same subject I 
raise with virtually every senior DHS and DOJ official that 
comes before this Committee. Like I did then, I want to outline 
a narrative for you and ask you to comment. I will be brief so 
you have sufficient time to respond.
    In 2011, there were 1,136 homicides in Puerto Rico, an 
average of over 3 a day, the most violent year in the 
territory's history. That was nearly the same number of murders 
as were committed that year in Texas, which has over 25 million 
residents compared to 3.5 million in Puerto Rico. Most murders 
in Puerto Rico are linked to the drug trade since Puerto Rico 
is within the U.S. Custom Zone and is used by organizations 
transporting narcotics from South America to the U.S. mainland.
    When I examined the level of resources that DHS and DOJ 
were dedicating to combat drug-related violence in Puerto Rico, 
it was clear that the Federal law enforcement footprint on the 
island was woefully inadequate. Accordingly, I did everything 
within my power to change that dynamic. Starting in 2012, under 
your predecessor, Secretary Napolitano, the message finally 
began to sink in. DHS component agencies like the Coast Guard, 
ICE, CBP, started to step up their games. The Coast Guard has 
massively increased the number of hours that its ships and 
planes spend conducting counter-drug patrols around Puerto 
Rico. ICE surged its agents to Puerto Rico where they arrested 
hundreds of violent criminals and seized vast quantities of 
illegal drugs and firearms. CBP assumed control of the aerostat 
program from the Air Force and moved quickly to repair the 
radar in southern Puerto Rico that had been inoperative since 
2011.
    The actions taken by DHS, in conjunction with its Federal 
and local partners, have made a major difference in a very 
short period of time. Each year the murder rate has declined. 
In 2014, there were 681 homicides in Puerto Rico. That is 40 
percent lower than 2011. In 2015 to date, there have been 287 
homicides. If current trends continue, there will be half as 
many murders this year as there were in 2011. I am not sure if 
there's any other jurisdiction in the world that has 
experienced such a steep and rapid crime drop.
    It is critical that we keep our eye on the ball and that we 
sustain and strengthen these efforts, especially since, 
notwithstanding the improvements, Puerto Rico's homicide rate 
is still four times the national average. Rest assured that I 
will continue to do my part. As you know, the Coast Guard is 
modernizing its fleet of vessels in Puerto Rico, replacing our 
six older vessels with six modern vessels. Last week, I met 
with Peter Edge, The Executive Associate Director of ICE HSI, 
which is doing great work in Puerto Rico, to discuss the 
agency's current posture and future plans on the island.
    On the legislative front, I secured language in the DHS 
appropriations bill that will enable CBP to use both revenues 
from the Puerto Rico Trust Fund and general appropriations from 
Congress to support its air and marine operations in the 
territory.
    I would welcome any comments you might have and hope you 
can assure me that Puerto Rico will continue to be a top 
priority for DHS. Thank you.
    Secretary Johnson. The answer is yes. And since we'd last 
met last year, we have created and operationalized my southern 
border campaign strategy, which brings to bear all the 
resources of my Department in different regions in a 
coordinated fashion. We are doing away with the stovepipes.
    So we have a Joint Task Force East, for example, which is 
for the southeast part of the country and the maritime 
approaches, where we now have, in a combined and coordinated 
way, all of the border security law enforcement assets of my 
Department devoted toward the southeast. And, so, we now have 
the Coast Guard, CBP, ICE, CIS, working together in a 
coordinated fashion for----
    Mr. Pierluisi. Great.
    Secretary Johnson [continuing]. Public safety and border 
security. And I think that's a very positive step, and I think 
it will be a positive step for Puerto Rico as well.
    Mr. Pierluisi. Thank you so much.
    Mr. Gowdy [presiding]. The gentleman from Puerto Rico 
yields back. The Chair will now recognize the gentleman from 
Texas, former Chairman of the Committee, Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Secretary Johnson, I'd like to go to the 30,000 convicted 
criminal aliens the Administration released last year. It was 
36,000 the year before. It's been over 30,000 for the last 
several years. Arguably, about 2,000 of the 30,000 had to be 
released because of the Zadvydas Supreme Court case, but that 
left 28,000 that I don't believe needed to be released.
    A partial breakdown of the 28,000 convicted criminal aliens 
the Administration released and didn't have to, include 5,000 
convicted or dangerous thugs, 500 convicted of stolen vehicle, 
200 convicted of sexual assault, 60 convicted of homicide, over 
300 convicted of commercialized sexual offenses, and over 100 
convicted of kidnapping.
    Why did the Administration release them? And is the 
Administration going to continue to release these types of 
individuals?
    Secretary Johnson. Congressman, as you and I have discussed 
previously, I would like to see that number greatly reduced to 
the extent legally possible. And so, last year, ICE, at my 
encouragement and direction, issued new policies to tighten up 
on the situation where somebody who has been convicted of a 
crime and who has served their sentence and transferred to 
immigration is then released.
    Mr. Smith. Okay.
    Secretary Johnson. And so we have a higher level of 
approval for doing so. We should not release people for lack of 
space or budgetary concerns.
    Mr. Smith. Right. Do you expect this number to come down 
dramatically in the next year?
    Secretary Johnson. I would very much hope and like to see 
it come down in fiscal year 2015.
    Mr. Smith. That's pretty much up to the Administration 
whether it continues to release individuals back into our 
communities, and as you know, many of them are convicted of 
additional crimes, which I think could have been avoided. 
Doesn't sound like you disagree with me.
    Secretary Johnson. Well, like I say, I want to see that 
number come down dramatically. As you point out, there is the 
Supreme Court decision which constrains our discretion 
somewhat.
    Mr. Smith. Right. That only applies to about 8 percent.
    Secretary Johnson. But like I said, and also a lot of it is 
up to the immigration judges, but I want to see this number 
come down, sir.
    Mr. Smith. Okay. I hope that you can succeed. That number 
has been at 30,000 or over for the last several years, and I 
haven't seen any improvement.
    A 1996 bill that I happen to have introduced became law, 
and a part of that law mandated that local officials cooperate 
with Federal immigration officials. Do you feel that San 
Francisco and other sanctuary cities are violating current 
Federal law?
    Secretary Johnson. I don't have a judgment with regard to 
that, sir. I do believe that the most effective approach is a 
cooperative one. I don't have----
    Mr. Smith. I know--I heard you say that a while ago. You 
have no opinion as to whether you think sanctuary cities are 
violating current Federal law, which I'm assuming you're 
familiar with?
    Secretary Johnson. I do not have a legal judgment on that 
question, sir.
    Mr. Smith. Okay. I'm appalled that you don't. One fact is 
that under this Administration, the number of sanctuary cities 
has been increasing dramatically.
    Has the Administration done anything to discourage a city 
from becoming a sanctuary city?
    Secretary Johnson. Absolutely, every day. We are with the 
new----
    Mr. Smith. No, all these new sanctuary cities where you had 
city councils who had voted to become sanctuary cities, has the 
Administration----
    Secretary Johnson. I personally----
    Mr. Smith [continuing]. To discourage any of them?
    Secretary Johnson [continuing]. Along with other senior 
officials of this Department, engaging mayors, governors, 
county supervisors, city council members, about cooperating 
with us pursuant to the new program.
    Mr. Smith. No, not cooperating. I'm asking you if you 
discouraged any city from becoming a sanctuary city?
    Secretary Johnson. I am encouraging people to cooperate.
    Mr. Smith. So the answer is no, you have not tried to 
discourage any city?
    Secretary Johnson. I have answered yes.
    Mr. Smith. No, no, you said you're encouraging cooperation. 
That's after they become a sanctuary city. I'm asking you, did 
you discourage any city from trying to become a sanctuary city?
    Secretary Johnson. Well, look, there are 300 
jurisdictions----
    Mr. Smith. That's pretty critical if you're not doing 
anything to discourage cities from becoming these sanctuaries.
    Secretary Johnson. Irrespective of what label you put on 
it, there are now 300 jurisdictions that have, to one degree or 
another, erected limitations on their ability to cooperate with 
us. I am trying to----
    Mr. Smith. And did you do anything to prevent any of 
those----
    Secretary Johnson.--I am flying back----
    Mr. Smith. Did you do anything to prevent any of those 300 
cities----
    Secretary Johnson [continuing]. For the sake of public 
safety.
    Mr. Smith. Mr. Secretary, did you do anything to prevent 
any of those cities from becoming a sanctuary city?
    Secretary Johnson. A lot of jurisdictions I meet with 
probably regard themselves as sanctuary cities. I don't know 
that there is a magic----
    Mr. Smith. I think it's clear you--you don't want to admit 
it, but I think it's clear you did not try to discourage any 
city from becoming a sanctuary city.
    One more question. The President said in regard to the 
surge last summer of illegal immigrants, particularly those 
coming from Central America, that they were going to be sent 
home. It's my understanding that roughly 92 percent are still 
in the United States. Why hasn't the President kept his promise 
to return those individuals home?
    Secretary Johnson. When you're talking about children, and 
I think that's what you're asking about.
    Mr. Smith. Not entirely, but regardless of how you want to 
label them, the President has said that they would be returned 
home.
    Secretary Johnson. Inevitably, removal and repatriation of 
a family or a child from Central America becomes a time-
consuming process, because as I'm sure you know, they very 
often assert an asylum claim.
    Mr. Smith. Do you agree with my statistic that 92 percent, 
roughly, are still in the United States of the individuals the 
President said we could return?
    Secretary Johnson. I haven't heard it put that way before, 
so I don't know. I do know that an awful lot of them are still 
here in deportation proceedings right now.
    Mr. Smith. I think it's 92 percent contrary to the 
President's pledge to the American people.
    I yield back, Mr. Chairman.
    Mr. Gowdy. The gentleman from Texas yields back. The Chair 
now recognizes the gentleman from Illinois, Mr. Gutierrez.
    Mr. Gutierrez. Welcome, Mr. Secretary. I'm happy to have 
you back here before this Committee.
    First of all, I think the gentlemen just misspoke on the 
issue. Not all jurisdictions call themselves sanctuary cities. 
It's a political term, political term of art some people 
appropriate and others don't.
    But it is clear that a Federal district court in Oregon 
ruled that a county violated a person's Fourth Amendment right 
to be free from unreasonable seizure by keeping the person in 
custody, based on nothing more than an ICE detainer. Now, 
that's a Federal court that made that determination, not the 
Secretary of Homeland Security.
    A Federal circuit court, the Third Circuit ruled that 
because ICE detainers are not mandatory but voluntary, with all 
due respect to the gentleman from Texas and the law that he 
passed in 1996, that's what a Federal court said in the Third 
Circuit, voluntary, law enforcement agencies are free to 
disregard them, and that is exactly what we're doing.
    So instead of having the Secretary of Homeland Security 
here asking him, well, how many people have you tried to 
dissuade, the Federal courts have said that the detainers are a 
violation and are not enforceable, regardless of what we here 
believe they are.
    And so why don't you just haul in the mayor of San 
Francisco and then haul in the mayor of Chicago and haul in the 
mayor of New York and just 300 jurisdictions and bring them 
before him. What are you going to do, lock them up, too? 
Because they don't abide by the way you look at the world and 
how things should be enforced? These are local jurisdictions 
that have made a decision that as they carry out local police 
enforcement, which is a local issue, this is the way they want 
to do it, and that they are not going to cooperate.
    Now, what they can do, instead of having this hearing here, 
which will lead to absolutely nothing, unfortunately, Mr. 
Chairman, this will lead to nothing. This will not lead to a 
solution. Everybody will feel better. They'll get a few 
headlines. They'll put something on their Facebook and they'll 
say, well, we put in a day's work, but it will lead to nothing. 
Why don't we get to the business of making sure.
    Mr. Secretary, I'd like to ask you a question. Of the 11 
million or so undocumented immigrants, did all of them cross 
the border between Mexico and the United States?
    Secretary Johnson. No. As you know, sir, a lot of the 
undocumented didn't come here by crossing the southern border. 
I mean, there are a variety of different ways.
    Mr. Gutierrez. Did millions of them come here legally to 
the United States with a tourist visa, a student visa, a 
worker's visa, and overstay those visas eventually?
    Secretary Johnson. Some are visa overstays, yes, sir.
    Mr. Gutierrez. Okay. So that if you shut down the border, 
there would still be millions of undocumented workers in the 
United States of America?
    Secretary Johnson. Well, I think we have done a lot for 
border security. We could always do a lot more, but we have, 
over the last number of years, done a lot, but the reality is 
that there are millions of people here undocumented. I am 
struck by the fact that something like more than half of them 
have been here more than 10 years. They are not going away. We 
don't have the resources to deport 11 million people.
    So in my judgment, we have to reckon with this population 
one way or another to make them accountable and to account for 
them. And so, a lot of us want to see us address this 
population of people in a way that promotes law enforcement, 
and it's simply the right thing to do.
    Mr. Gutierrez. So 11 million people, if not one of them 
crossed the border ever again, there would still be hundreds of 
thousands, indeed millions of visa overstays because the only 
border into the United States of America, isn't to the surprise 
of many probably, not the border between Mexico and United 
States, if not LAX and JFK and Chicago O'Hare where people 
enter into the country legally every day, and have overstayed 
their visas.
    And that we need to also do something--as we look at the 
broken immigration system, we should not just focus on that 
border, because I think focusing on the border really doesn't 
give us the true nature of the problem that we confront.
    I'd like to just end because you were asked earlier about 
whether or not when people apply for deferred action, if 
they're asked if they're a gang member. Now, of course, if 
Members of Congress actually filled out the forms or helped 
people fill out the forms, they'd know that they're asked, so I 
understand that if you've never filled out one of these forms, 
or your staff has never filled one out, you wouldn't know, but 
I just wanted to make sure that you gave the right answer, Mr. 
Secretary. It is asked. They ask them----
    Secretary Johnson. That's my----
    Mr. Gutierrez. Have you every--that was your answer.
    Secretary Johnson [continuing]. We direct them.
    Mr. Gutierrez. But it says have you ever been arrested for, 
charged with, convicted of a crime in any country other than 
the United States? So not only do you ask them about here, but 
you ask them about the country of origin, and you ask them 
particularly if they have ever been a gang member, and they 
must--and I'll just add this, just so that we can--if you 
answered yes, that you've ever been arrested, charged with, 
convicted of a felony or misdemeanor, including incidents when 
you were in juvenile court, which usually are sealed, but not 
in this case. You want to be a DREAMer, you got to tell 
everybody about everything.
    If you answered yes, you must include a certified court 
disposition, arrest record, charging document, sentencing 
record, except--for each arrest, unless disclosure is 
prohibited under State law.
    So I just wanted to make sure that the Committee understood 
that when people apply for deferred action, they not only have 
to--if they answer yes to all those questions, all of those 
documents must be presented, and they do ask. And lastly, they 
have to be fingerprinted, and those fingerprints are checked, 
Mr. Secretary, by? I just want to make sure. Who checks the 
fingerprints that are--that the--DACA recipients?
    Secretary Johnson. I believe it's a combination of 
agencies. I believe that's an interagency process.
    Mr. Gutierrez. Interagency process. That's what I thought. 
So it's an interagency process. Thank you so much, Mr. 
Secretary, for coming before us today.
    Mr. Gowdy. I thank the gentleman from Illinois. 
    I think Mr. Forbes' broader point, Mr. Secretary, and I 
think he meant to ask you about transcript as opposed to 
record. The transcript of a guilty plea or a trial is--you can 
very well be a member of a gang and never be charged or 
prosecuted with that. I think that was his broader point, but 
with that, I would go to the judge from Texas, Judge Gohmert.
    Mr. Gohmert. Thank you. And thank you, Mr. Secretary for 
being here. It was hearing my friend from Tennessee, Mr. Cohen, 
talk about all these threats that are apparently, in his mind, 
conservatives, but I don't know where his numbers were coming 
from. They are nothing like what I've been seeing.
    As I understand, the Underwear Bomber was certainly not an 
evangelical Christian, not a conservative. Do you know for 
sure, was he a member of al-Qaeda in the Arabian Peninsula? I 
know that was floated at one time, the Underwear Bomber?
    Secretary Johnson. I would regard him as part of AQAP, yes, 
sir.
    Mr. Gohmert. Okay. And I know that was before your watch, 
obviously. The Boston bomber----
    Secretary Johnson. That actually happened when I was at the 
Department of Defense.
    Mr. Gohmert. Right.
    Secretary Johnson. So I'm very familiar with the case.
    Mr. Gohmert. Yeah. But you aren't going to take credit for 
letting it happen, though.
    Secretary Johnson. I was at DOD, part of the national 
security apparatus of our group at the time.
    Mr. Gohmert. You were not in charge of TSA when he got 
through wearing a bomb in his underwear.
    Secretary Johnson. I was not in charge of TSA on December 
25, 2009, no, sir.
    Mr. Gohmert. All right. Thank you. And then Fort Hood, I 
know some of my colleagues prefer to call that workplace 
violence, but when someone is yelling--indicating that he's 
doing it in the name of Allah, that doesn't seem to be exactly 
a right wing, radical, evangelical Christian.
    But I know there has been a lot of discussion about 
Francisco Sanchez in San Francisco, and I know as a former 
judge, we had an ongoing problem. One guy in particular, I 
sentenced him--I think he had nine DWIs before he got to my 
felony court, and I thought, well, if he's going to be a 
threat, I'll send him to prison, and 6 months later, he's back 
in my court.
    He said that he was deported 30 days or so after I sent him 
to prison, and I come back, and that's what keeps bringing me 
back to Francisco Sanchez. He was deported five times. 
Secretary, have you analyzed each of those deportations, where 
they occurred, and where Sanchez may have reentered the 
country?
    Secretary Johnson. I have looked at a very detailed 
timeline of each of the five removals. I don't, sitting here, 
recall exactly where he was removed, from what point, from what 
station, and we don't know, for obvious reasons, how and when 
he reentered the United States, or, at least, I don't know. 
Maybe in a guilty plea or something he acknowledged how and 
when he did it, but sitting here, I don't know where he 
reentered or crossed the border each of those five times, sir.
    Mr. Gohmert. Wouldn't that seem to be important to know 
where somebody reenters five times?
    Secretary Johnson. Yes, absolutely.
    Mr. Gohmert. I would encourage you, and I would like to 
find out from somebody in your Department where those five 
reentries were. I mean, were they all down in South Texas or 
were some in the Arizona area, were they California? It doesn't 
seem like we'll ever be able to get a grip on dealing with 
reentries by people that come in illegally if we don't know 
where they're reentering.
    The fella I mentioned that I had dealt with when he was 
back in my court, I asked how he came back in, and he said, 
well, they took him to the border and watched him walk across, 
and then after the officials, they took him to the border, 
drove off, then he came back across and ended up back in our 
county. And so it just seems like that ought to be where the 
focus is.
    Is there any indication that if Mr. Sanchez had been given 
amnesty somewhere between the first illegal entry and the 
fifth, that he would not have shot Kathryn Steinle? Are there 
any indications that amnesty would have prevented this?
    Secretary Johnson. I'm not sure I understand your question.
    Mr. Gohmert. I think it's a pretty basic question. The 
White House is saying that the fault for the shooting of this 
beautiful young lady in San Francisco was because Republicans 
have not passed comprehensive immigration reform, and we know 
we've passed laws, we've appropriated money to build a fence, 
to build a virtual fence, things that have not been done, and 
I'm just wondering if we can figure out what the White House is 
thinking, because, obviously, an amnesty was going to be part 
of a comprehensive immigration reform, and I'm just wondering 
if we, all of a sudden, declare Mr. Sanchez as being legally 
here, if that would have kept him from pulling a gun and 
killing Ms. Steinle.
    I can't find any correlation to that, and I'm just trying 
to figure out what in the heck the White House thinks would 
have occurred differently if this man had been granted amnesty. 
I can't see that it would have prevented her shooting.
    Secretary Johnson. Well, I don't--to be honest, sir, I 
don't know what to say.
    Mr. Gohmert. And I do prefer you to be honest. Thank you.
    Secretary Johnson. I am interested in promoting cooperation 
with local law enforcement for reasons of public safety so that 
we can, more effectively, get at people like this individual.
    Mr. Gohmert. So if there were an amnesty, I don't see how 
that particularly helps. You just declare everybody legal, then 
I don't see that it makes a difference, but--and I realize time 
is running out.
    Is DHS still shipping people to different parts of the 
country after they enter illegally, depending on where they 
have family or where they asked to be shipped?
    Secretary Johnson. I don't know that that's our policy, 
sir.
    Mr. Gohmert. Are you saying DHS has not done that?
    Secretary Johnson. I don't know that that's our policy, as 
you stated. Some people----
    Mr. Gohmert. I didn't state it was a policy. I'm just 
saying you've done it.
    Secretary Johnson. Some people are able to make bond, some 
people are put in our alternatives to detention programs, sir.
    Mr. Gohmert. So the question was, are you still sending 
people to different parts of the country after they enter 
illegally?
    Mr. Gowdy. The gentleman's time is expired. The Secretary 
may answer if he wants to.
    Secretary Johnson. I don't know, logistically, where we 
send people or how they are placed. I do know that a large 
number of people are making bond and a large number of people 
are being placed in our alternatives to detention program.
    Mr. Gohmert. So that would be a yes, you're shipping around 
the country. I yield back.
    Mr. Gowdy. The Chair would now recognize the gentleman from 
Idaho, Mr. Labrador.
    Mr. Labrador. Thank you, Mr. Chairman.
    Mr. Johnson, thank you for being here today. Ever since 
Kate Steinle's murder, DHS in San Francisco have been pointing 
fingers of the blame at each other. In fact, I heard several 
people on the other side say that it wasn't the fault of ICE 
that Lopez-Sanchez was released.
    But we had a telephone conference last week with a DHS 
official, and my congressional staff asked last Tuesday that 
even if BOP had released Mr. Sanchez to ICE, ICE's answer said 
ICE likely would have released him to San Francisco because of 
the outstanding criminal warrant, despite San Francisco being a 
known sanctuary city that does not comply with detainers and 
routinely releases hardened criminal aliens.
    Does it make sense to release a hardened criminal alien who 
was already deportable to a jurisdiction that will never return 
him to you for deportation purposes?
    Secretary Johnson. No.
    Mr. Labrador. How often does ICE release such criminal 
aliens to sanctuary cities?
    Secretary Johnson. I don't know, but no, to your first 
question.
    Mr. Labrador. So if it doesn't make sense, why is ICE 
saying that they would have released him to----
    Secretary Johnson. I was not part of the conversation with 
your congressional staff, sir, but I'll stand by my answer.
    Mr. Labrador. You're standing by your answer, but that's 
not your policy. I mean, it's great to come here to Congress 
and give us an answer when the policy of the Administration is 
to release these people to these sanctuary cities.
    Secretary Johnson. Like I said, it does not make sense to, 
in response to your question, release somebody.
    Mr. Labrador. So what are you going to do about it?
    Secretary Johnson. As I said earlier, I think we need to 
evaluate whether greater discretion needs to be built into a 
situation where there is a choice, or there is a jurisdiction 
that wants the individual on an arrest warrant and an 
immigration detainer. I think that there should be some 
discretion built into what is the best course for purposes of 
public safety.
    Mr. Labrador. But it took this young lady's death to 
actually get to that determination when this is not the first 
time this has happened? In fact, you keep telling the American 
people that they are safe, that we are stopping illegal aliens, 
but the only reason we knew that Lopez-Sanchez was here is 
because he killed somebody, because we keep releasing him. He's 
been detained five times. He's crossed the border. We are not 
stopping him from entering the United States. We just keep 
catching him committing crimes once he's here in the United 
States.
    I don't know that we can say that America is safe when 
people like this continue to come into the United States.
    I'm going to give the rest of my time to the Chairman.
    Mr. Gowdy. All right. I thank the gentleman from Idaho. I 
think Mr. Labrador's point, Mr. Secretary, and I'm sure given 
your background as a law enforcement officer and as a 
prosecutor, I'm sure you can feel and understand the 
frustration. We kick him out five times, he comes back. He 
reoffends when he does come back. We put him in Federal prison, 
he violates supervised release. We put him back in Federal 
prison, and he is released to a city where we knew ahead of 
time this was going to happen.
    And it would be one thing to release someone to a 
jurisdiction for a murder charge, sexual assault, serious, 
serious drug offense, it would be one thing to do that so they 
can prosecute him and--particularly if there's a victim 
involved, that's exactly what you would want to do.
    But this is an old drug case. If they were going to dismiss 
it, why didn't they dismiss it while he was in the Bureau of 
Prisons? Why did it require his presence in San Francisco to 
decide to dismiss a case? He wasn't going to be a witness 
anyway. I mean, you get the frustration, and--I think it's 
being directed to you because we perceive that you are in a 
position to change that.
    And I know you say ``cooperation,'' that you are trying to 
pursue cooperation, but I think maybe this week or last week 
when you were talking to some folks on Judiciary, and if I'm 
wrong, correct me, there are five municipalities that have flat 
out told you they're not going to cooperate with you. So what 
do we do with them?
    I mean, if they really are refusing to cooperate, surely we 
have to have something more than just going back to them and 
talking to them again. I mean, you work for the United States 
of America. How in the hell can a city tell you no?
    Secretary Johnson. First of all, I intend to reattack on 
the five. That was prior to San Francisco. I am not giving up 
on the five. The overwhelming majority have said, yes, they are 
interested. So we are going to continue to push at this.
    And sir, I agree totally with the spirit of your question, 
and I want to evaluate whether some discretion can be built 
into the process so that when we're faced with a choice like 
that, we are able to make the best choice for reasons of public 
safety. I won't argue with you there, sir.
    Mr. Gowdy. And I'm not going to pick on somebody who used 
to be a prosecutor, because I know you spent a lot of your 
career standing up for victims, but I swear, when I hear the 
term ``sanctuary city,'' the only sanctuary it ought to be is 
for law-abiding citizens. If we're going to have a sanctuary, 
it ought to be for them. When a young woman is shot walking 
with her father, with somebody with this resume, either you got 
to do something or we got to do something or maybe we can do it 
together.
    With that, I would recognize the gentleman from Georgia, 
Mr. Collins.
    Mr. Collins. Thank you, Mr. Chairman.
    Again, I share the Chairman's frustration and other 
frustrations that have been here, because at a certain point in 
time, you say, again, that they just don't want to cooperate. 
We've got five cities say we're just not going to cooperate. I 
was just looking on your Web site, DHS Web site, which you've 
got a vast array that you deal with.
    I want to get ahead of the game. Let's decide--because I 
was in the State legislature, and I know cities and States are 
struggling financially right now. They have, as you've used the 
term, which I do not agree with, that this is simply a 
prosecutorial discretion issue, resources issue.
    One of the things is cybersecurity that you deal with, and 
you enforce cybersecurity laws, you work with law enforcement 
on the local and State level to do that. What if now they just 
don't have the resources to do that, and they said, you know, 
we're just not going to enforce that, we're not going to 
cooperate with you, Mr. Secretary. Would you have an opinion on 
that?
    Secretary Johnson. Absolutely. We would engage--we would 
encourage them to do otherwise presumably, yes, sir.
    Mr. Collins. Okay. But we would--interesting thing. Because 
you said to Mr. Smith earlier, and there's other things, you 
know, from economic security and everything. You said you had 
no opinion on sanctuary cities, but yet to the Chairman just 
now, you said you agree with the spirit of his question.
    Secretary Johnson. Yes.
    Mr. Collins. So what is it? Do you have an opinion, do you 
have a spirit, do you have a sudden moving internally, what do 
you feel about this issue? Why can we not have the United 
States Government pass law, and then you have an opinion? You 
either have an opinion, you don't have an opinion, you agree 
with the spirit, you don't agree with the spirit. For the 
American people, it's just hard to understand here.
    Secretary Johnson. Well, let me make this clear. I believe 
that the most effective way to address and enhance public 
safety is to work cooperatively with State and local law 
enforcement. As a result of our prior----
    Mr. Collins. So I'm going to stop right there, though. So 
the supremacy clause is optional?
    Secretary Johnson. May I finish?
    Mr. Collins. Is the supremacy clause optional? I'll let you 
answer.
    Secretary Johnson. May I finish my sentence?
    Mr. Collins. Go ahead.
    Secretary Johnson. I believe that as a result of the prior 
policy, we were inhibited in our ability to promote public 
safety. With the new policy, I believe we'll be in a much 
better position to work effectively and cooperatively with law 
enforcement. I do not believe that Federal legislation 
mandating the behavior of a lot of sheriffs and police chiefs 
is the way to go. I believe it will lead to more litigation, 
more controversy, and it will be counterproductive.
    Mr. Collins. One, the supremacy clause questions you never 
answered, but the question you just said there, so you don't 
believe that mandating what law enforcement in the country does 
from a congressional perspective, because we're the only ones 
that Congress does the law writing.
    Secretary Johnson. I do not believe----
    Mr. Collins. So they can pick and choose what they want to, 
just overwhelmingly?
    Secretary Johnson. I do not believe that the Federal 
Government and the U.S. Congress should mandate the behavior of 
State and local law enforcement.
    Mr. Collins. So civil rights could be optional?
    Secretary Johnson. The most effective way to do this is 
cooperatively with the new program, and I believe it is going 
to yield very positive results, sir.
    Mr. Collins. In the spirit of this, your request. So civil 
rights are optional for States and locals to enforce?
    Secretary Johnson. I don't think that mandating an approach 
by this Congress is the way to go. I think it will be hugely 
counterproductive, and it will set back----
    Mr. Collins. So the Civil Rights Act was counterproductive?
    Secretary Johnson [continuing]. My public safety efforts in 
this regard.
    Mr. Collins. No, it's not. I want to go back to what you're 
saying because it goes at the heart of what we're saying. So 
you're saying the Civil Rights Act was overreach. You're saying 
that they shouldn't be enforcing this? I think we're getting at 
the issue of it here, because at a certain point in time, when 
does it become just wholesale abandonment of prosecutorial 
discretion when you just say we're not going do this?
    I agree with prosecutorial discretion, but what you're 
saying, if you just take a whole class off the table in the 
best sentiments that you want, because it leads to other issues 
like the earned income tax credit, are they folks who are 
eligible? The decisions you have affect other issues than 
simply saying we're going to hold somebody or not. We're going 
to address the earned income tax credit issue with legislation 
I'm going to draw, but it has more to do with what do we pick 
and choose to enforce?
    I'm not sure still what your opinion is because you've, 
again, not answered it. You just said we'll work with them. My 
question is, before you come back next year, whenever it is, if 
we have this hearing again, is what if some of these agencies 
decided they didn't want to enforce something you thought they 
should? Where is the screaming? Where is the outrage? Where is 
the intent? When should Congress pass anything if there is no 
supremacy clause, if there is no worth to what we do to protect 
civil rights, to protect other things? When does each 
department get to decide that they're not going to enforce 
their Federal jurisdiction on States and localities who simply 
say, you know, we're not going to do it right now?
    Secretary Johnson. May I answer?
    Mr. Collins. Well, I stop, and it's asked a question. 
That's your response time.
    Secretary Johnson. Yes.
    Mr. Collins. All right.
    Secretary Johnson. I have 2 seconds.
    Mr. Collins. The Chairman will give you all the time. If 
you'll answer that, he'll give you all the time you need.
    Secretary Johnson. I want to enforce the law.
    May I, Chairman?
    Mr. Gowdy. Yes, sir, you may answer the question.
    Secretary Johnson. I want to enforce the law in a way that 
maximizes public safety and border security. That means going 
after the criminals. A big problem with doing that are the 
number of jurisdictions, I don't know what label you want to 
put on them, sanctuary cities or otherwise, that have erected 
ordinances, laws, policies that inhibit cooperating with 
immigration enforcement.
    In my judgment, and in the judgment of a lot of other 
border security immigration enforcement experts, the way to 
most effectively work with these jurisdictions, again, is a 
cooperative one, not by hitting them over the head with Federal 
legislation that will engender a lot more litigation. And I 
believe we're on the path to do that, sir.
    Mr. Collins. Mr. Secretary, I respect that opinion. I think 
what you have opened up, though, is a Pandora's box on other 
things that they don't want to enforce because of other reasons 
that they'll come up with, and just because this is a political 
issue for this Administration, they're going to let that go, 
but you do open a Pandora's box to what they will enforce and 
what they won't enforce, and that's not what the average 
American understands when they learn Black Letter law and they 
understand what's right and what's wrong. With that, I yield 
back.
    Mr. Gowdy. The gentleman's time is expired. The Chair will 
now recognize the gentleman from Texas, Judge Poe.
    Mr. Poe. Thank you, Mr. Chairman. Thank you, Mr. Secretary, 
for being here. Once again, thank you for coming to Houston. I 
appreciate your personal involvement and FEMA doing an 
excellent job during the floods of May, as I refer to them.
    I direct some questions about foreign fighters, not only 
from the United States going to help ISIS, but foreign fighters 
in other countries. We know that ISIS uses social media, 
Twitter, others to recruit, to raise money and to spread their 
propaganda. What is DHS doing to counteract that?
    Secretary Johnson. A number of things, sir. Thank you for 
that question. First of all, to deal with the foreign fighter 
issue, one of the things we did last year was to add 
information fields to the ESTA system, the Electronic System 
for Travel Authorization, so that we know more about people who 
want to travel to the United States from countries for which we 
do not require a visa.
    We have also developed and are developing an additional set 
of security assurances that we can get from visa waiver 
countries, because a large number of foreign fighters, as you 
know, I'm sure, are coming from and returning to countries for 
which we do not require a visa, and so I want to see us enhance 
the security assurances we get from these countries with 
respect to people who travel from those countries to this 
country.
    Additionally, on the international level, we've done a lot. 
I sat in on and represented the U.S. and the U.N. Security 
Council session in May on the issue of foreign fighters. And in 
terms of our efforts here at home, one of the things that we're 
spending a lot of time on, that I'm spending a lot of time on 
are see what we refer to as CD engagements in communities in 
the United States like Houston, for example.
    I had a very good session in Houston on the same visit 
where you and I were together at your middle school, and so in 
my view, enhancing and refining our CD efforts in this country, 
which DHS participates in, which the FBI participates in and 
other law enforcement agencies, along with State and local law 
enforcement, is a priority, given how the global terrorist 
threat is evolving.
    Mr. Poe. The other thing I want to discuss with you is 
repatriation, and what the law is currently in the United 
States and how it's being implemented, if it is.
    We have this problem that a person comes to this country, 
commits a crime, goes to Federal prison. While in prison, the 
way the system works, he's ordered deported. The country 
doesn't take him back. Six months later, he's released back 
across America. What are we doing to those countries to 
encourage them, you take your convicted criminals back?
    Secretary Johnson. The State Department and I have been in 
dialogue about this, and we have been in dialogue with 
countries that are slow to repatriate people. I have personally 
had this discussion with my Chinese counterparts when I was in 
Beijing in April, and I believe we made some progress there 
where they agreed to additional repatriation flights, and so 
China is one of the big ones. So we made good progress there, 
but I think, and I agree that there is more work to do in that 
regard.
    Mr. Poe. If I understand, China, number 1, the other top 
five, Vietnam, Cuba, India, Jamaica, refused to take back their 
lawfully deported citizens. Doesn't the law already allow the 
State Department, under some circumstances similar to that 
scenario, to revoke visas from that country?
    Secretary Johnson. I believe it does, but I'm not sure.
    Mr. Poe. Do you encourage the State Department to do that, 
when appropriate?
    Secretary Johnson. I would not, at this time, encourage 
that, sir, no, sir.
    Mr. Poe. All right. Thank you, Mr. Chairman. I will yield 
back.
    Mr. Gowdy. The judge yields back. The Chair will now 
recognize my friend from Florida, Mr. Deutch.
    Mr. Deutch. Thank you, Mr. Chairman.
    Secretary Johnson, thanks for being with us today and I 
want to applaud your recent decision to change detention 
practices for families awaiting their appearance in immigration 
court, and that's because many of those awaiting their day in 
court are mothers with young children.
    Why they fled their home countries is no mystery. Central 
America has been gripped by transnational gang violence, and 
these families are not, as Republican presidential candidate 
Donald Trump has described, to be violent criminals, drug 
dealers, and rapists. These families are fleeing violent 
criminals, drug dealers, and rapists. And many of the mothers 
currently in custody have suffered sexual abuse, witnessed 
extreme violence, and received death threats against themselves 
and their children.
    How we treat them, Mr. Secretary, colors the reputation of 
the United States on the international stage, and our practice 
of welcoming these most vulnerable families by essentially 
incarcerating them was wrong and called for change.
    After all, the purpose of civil detention is to ensure that 
individuals show up in immigration court. These families have 
every reason to do so. They pose no flight risk and indeed, for 
many of them, returning home would mean risking death. 
Likewise, we have no national interest in subjecting children 
of any nationality to the detrimental psychological impact of 
detention, which has been documented in several recent studies.
    Your written testimony includes plans to rapidly increase 
the use of ATDs, or alternatives to detention, and it deserves 
our praise. Expanding the use of ATDs from 23,000 in 2014 to 
53,000 in 2016 is the morally respectable and the fiscally 
responsible thing to do, and I am encouraged by this 
development, and I want to encourage you to expand the use of 
ATDs throughout our greater immigration enforcement system.
    Our overreliance on immigrant detention has disturbing 
implications. A recent report by Detention Watch Network 
revealed that ICE often agrees to contracts with for-profit 
detention corporations that include guaranteed minimum numbers 
of detainees for specific facilities each day. These local 
lockup quotas in detention contracts obligate ICE to pay for a 
minimum number of immigration detention beds at specific 
facilities referred to in contracts as guaranteed minimums. And 
for the government to contractually guarantee specific 
detention center prepaid numbers of detainees, each day is a 
waste of taxpayer dollars, it's a violation of best practices 
of law enforcement, and it is an affront to our basic concept 
of justice in America.
    The financial implications for taxpayers will also raise in 
a November 2014 GAO report, and that's because such quotas 
often pad the profits of private-person companies at taxpayer 
expense, even when slots go unfilled.
    Certainly, detention is invaluable to law enforcement. It's 
invaluable when dealing with immigrants who officers determine 
are flight risk or whose release could threaten public safety, 
but detention is intended to be one of many tools available to 
ICE to ensure individuals show up for immigration court, not 
the only one.
    But evidence of local lockup quotas may just be the latest 
symptom of the real disease, which is the mandate imposed by 
Congress in the annual Homeland Security appropriations that 
requires ICE to maintain the detention of 34,000 individuals 
each day. This detention-bed mandate cost taxpayers over $2 
billion a year, $5.5 million per day to enforce, because 
placing someone in detention for nearly $160 a day is far more 
expensive than proven alternatives, like ankle bracelets and 
supervised release, which are just as effective and far more 
humane at a fraction of the cost.
    We could save taxpayers nearly $15 billion over the next 
decade through the greater use of alternatives to detention. 
But as sensible and as fiscally sound as this policy may be, 
I'm concerned that the incorporation of local quotas into ICE 
contracts is only further entrenching the national detention 
bed mandate into our communities, and I have just a series of 
questions. I'd ask you can respond now or you can provide 
responses after, Mr. Secretary.
    I would like to know if you're aware of ICE's practice of 
signing these contracts with private detention companies that 
contain lockup quotas? We're interested to know whether, during 
contract negotiations, private detention companies insist the 
contract for specific facilities contain these provisions? Is 
it the lockup quota for a specific facility, is that lockup 
quota negotiable during negotiations?
    And finally, the November 2014 GAO report that addressed 
lockup quotas for specific facilities was critical of those, 
and I'd like to know whether DHS made any policy changes in 
response to that report addressing lockup quotas in contracts 
with private detention companies?
    You're moving in the right direction, Mr. Secretary, and I 
hope you can respond to these questions so that we can save the 
taxpayers money so we can have a policy that is more humane as 
well. Please.
    Secretary Johnson. I would refer you to the directive that 
I issued on June 24th in the announcement concerning family 
detention, which you alluded to in your statement, and I'd like 
to take those questions for the record, sir.
    Mr. Deutch. Thank you. Thank you, Mr. Chairman. I yield 
back.
    Mr. Gowdy. The gentleman from Florida yields back. The 
Chair will now recognize the gentleman from Michigan, Mr. 
Bishop.
    Mr. Bishop. Thank you, Mr. Chair.
    And thank you, Mr. Secretary, for being here today. I have 
a number of questions I intended to ask about cybersecurity, 
but as I sit here, we have now been through most of the Members 
on the panel. I need to ask you a question, and I feel like I 
need to ask you it as not a Member of Congress, neither 
Republican or Democrat, but just as an American.
    And you were a former prosecutor. I respect your insight on 
this, and I hope that you can share your thoughts in a candid 
way, and this is actually, you know, a follow-up question, in 
particular, to Mr. Collins' and Mr. Gowdy's questions.
    We're a Nation of laws, and as I sit here and listen to 
this discussion, we are a Nation of laws. It's what 
differentiates us. It's what distinguishes us as a civilized 
society, and in this country we don't discriminate when it 
comes to the application of the law. In fact, the Fifth 
Amendment of our Constitution, equal protection doctrine, and 
which extends to States as well, specifically says, it requires 
us, people in similar circumstances are to be treated in the 
same way, in similar ways.
    And as I think about sanctuary cities and how they have 
been applied and how we have discussed them in this context, 
how has this continued on? How do we continue to accept 
sanctuary cities and its selective application of law? And I 
would say, historically, Americans would view the selective 
enforcement of laws as a sign of tyrannical government.
    It's inherently unjust. It's a blatant misuse and abuse of 
power to allow for such an environment to exist. And I'm 
wondering how we expect Americans to respect the rule of law if 
the Administration's policy is to enforce them, based solely on 
edicts from rulers rather than from actual rule of law?
    Secretary Johnson. Is your question with regard to 
sanctuary cities?
    Mr. Bishop. It is with regard to sanctuary cities, and to 
me, as a person who represents a good 700,000 people, and one 
of the very issues that I hear about every day is the fact that 
we have lost the ability to enforce the laws as they are 
written, that we do it in such a way that applies in one way to 
one group in such a way, and another way to another group. And 
when that happens, we lose the rule of law, and folks just 
simply do not want to comply with the law.
    Secretary Johnson. Well, if I could answer it this way: 
Last year, when I took a look at the number--the growing number 
of jurisdictions, States, cities, counties that were refusing 
to cooperate with my own Department in the enforcement of our 
immigration laws, I said, this is something that we have to fix 
because the number is growing, and it's affecting public 
safety, in my judgment.
    And so we took a hard look at the Secure Communities 
Program. We saw how it was becoming an item of litigation in 
court, and the defendant was losing in court in these cases, 
and we look at the political controversy that had been built up 
around Secure Communities. I concluded that we needed to make a 
clean break with the past and develop a fresh program that I 
believe is going to fix the situation and promote public 
safety.
    And so that's what we've been doing since the announcement 
of the new program in November. Unfortunately, there is no one-
size-fits-all answer to this, because a lot of these 
jurisdictions have erected different types of limitations on 
their ability to cooperate with us.
    Mr. Bishop. May I--sir.
    Secretary Johnson. We have to do this one by one.
    Mr. Bishop. And I gathered that from the testimony. I know 
my question was a duplication of many other questions. I 
apologize for the fact that I'm asking a question that's 
already been answered, but the frustration is, how is it 
possible that we live in a country of laws, a Nation of laws 
that allows these local jurisdictions to set up these little 
buffer areas where the law does not apply to them?
    And I know that we've heard about the Fourth Amendment and 
the concerns about the Fourth Amendment, and I respect the 
Fourth Amendment, but we can't hide behind the Fourth Amendment 
when the rest of the Constitution applies, when in fact, it's 
endangering citizens, and when it really prevents us from 
applying the rule of law in a way that's consistent with every 
American.
    And I just sit here in frustration as I listen to this 
discussion. I'm wondering why isn't the Federal Government 
insisting upon these local units of government following the 
rule of law and not allowing this to happen, not allowing this 
selective application to happen?
    Secretary Johnson. Well, again, I believe that the best 
approach is a constructive one, and I believe that it will lead 
to much better results. It will raise the level of trust and 
cooperation, because we have not been in a good place when it 
comes to a lot of jurisdictions that are just very distrustful 
of our immigration enforcement efforts, and I want to put us in 
a better place as long as I'm Secretary.
    Mr. Gowdy. The gentleman yields back. The Chair will now 
recognize the gentleman from Texas, former United States 
Attorney, Mr. Ratcliffe.
    Mr. Ratcliffe. Thank you, Mr. Chairman.
    Secretary Johnson, earlier today, as you gave your 
testimony and responded, I think, to the first question, you 
said something, you said, and I'm quoting you here, ``It is a 
fiction to say that we are not enforcing the law,'' when it 
comes to deporting criminal aliens. Did I hear you correctly?
    Secretary Johnson. Yes, sir.
    Mr. Ratcliffe. Okay. And in fairness, and the Department 
clearly is deporting some folks, but I'd hope that you'd agree 
with me that what's not a fiction is that this Administration 
has been attempting to change the law when it comes to 
deporting criminal aliens, a fact reflected by the President's 
executive orders back in November?
    Secretary Johnson. I disagree.
    Mr. Ratcliffe. Why would you disagree with that?
    Secretary Johnson. Because in my judgment, and in the 
judgment of the Department of Justice, our executive actions 
were within and are within our existing legal authority.
    Mr. Ratcliffe. I'm not talking about within the authority. 
I'm asking you about changing the law here.
    Secretary Johnson. Well, if it's in your legal authority to 
act, you're not, by definition, changing the law.
    Mr. Ratcliffe. Well, let me ask you about that then. You do 
agree with me that the President's executive orders in November 
attempts to allow executive amnesty to 4- to 5 million illegal 
aliens, you'd agree with that?
    Secretary Johnson. Not the way you've characterized it, no.
    Mr. Ratcliffe. All right. Then how would you characterize 
it?
    Secretary Johnson. One of the executive actions I signed 
was to create a program by which we can offer deferred action 
on a case-by-case basis to those who come forward and who meet 
certain criteria and who, in the judgment of the agency, should 
be given deferred action.
    Mr. Ratcliffe. Which could result in amnesty to up to 4- to 
5 million----
    Secretary Johnson. No.
    Mr. Ratcliffe [continuing]. Folks here?
    Secretary Johnson. I don't agree with that. That's not my 
definition of amnesty.
    Mr. Ratcliffe. Okay. Well, you've gone on record, 
regardless, of saying that you think the President's actions in 
that regard, that he acted constitutionally.
    Secretary Johnson. Yes, sir.
    Mr. Ratcliffe. All right. And I've gone on record as saying 
I don't think that he has acted constitutionally, and right now 
a Federal judge in a court of appeals in the Fifth Circuit has 
agreed with me that the President's request to lift that stay 
and to proceed to take those actions shouldn't be allowed. But 
you've been asked today and talked a lot today about the issue 
of prosecutorial discretion, and we're both former prosecutors, 
so I'd like to ask you about something that you said previously 
in a hearing last year.
    You said, and I'm quoting, ``There comes a point when 
something amounts to a wholesale abandonment to enforce a duly 
enacted constitutional law that is beyond simple prosecutorial 
discretion,'' end quote. Does that sound like something you 
said?
    Secretary Johnson. That sounds like me, yes.
    Mr. Ratcliffe. Okay. And do you believe that?
    Secretary Johnson. I still do.
    Mr. Ratcliffe. Okay. So I know the answer to this question, 
but I'm going to ask you anyway. Do you think that DHS has 
already crossed that line by suspending the law for almost 5 
million folks that are here illegally?
    Secretary Johnson. Well, again, I would not characterize 
our executive actions that way, and I would refer you to the 
opinion of the DOJ Office of Legal Counsel issued in November 
in terms of where that line exists. I thought it was a pretty 
thoughtful discussion.
    Mr. Ratcliffe. Okay. But again, you don't think that 
wherever you think that line is, you don't think DHS has 
crossed it at this point?
    Secretary Johnson. No, sir.
    Mr. Ratcliffe. Okay. So that begs the question----
    Secretary Johnson. I know that there are people who 
disagree with me, but no, sir.
    Mr. Ratcliffe. Sure. That begs the question from me, what 
would it take, in your opinion, for DHS to cross that line 
because I think there's every possibility that this President 
will attempt to move this line again, and so if this President 
were to seek to grant deferred action to, say, all 11- or 12 
million unlawful aliens in this country, I would like to hear 
you on the record on whether or not you think that would cross 
this line?
    Secretary Johnson. Well, again, I'm no longer practicing 
law. I'm just a Secretary. And so I think what you're asking me 
for is a legal judgment, and again, I believe that the opinion 
of DOJ's Office of Legal Counsel has a pretty good discussion 
of this exact topic, and I recall when I read it, agreeing with 
the analysis. I don't have it with me, but I recall then 
agreeing with the analysis.
    Mr. Ratcliffe. Well, let me ask you about that. So that 
analysis extends--since you had a good discussion with them, 
would it extend to possibly 11- or 12 million folks?
    Secretary Johnson. Doubtful.
    Mr. Ratcliffe. And if it did, would you have an opinion on 
whether it should?
    Secretary Johnson. Well, it depends on the circumstances, 
but I would say I doubt it.
    Mr. Ratcliffe. So when you say you doubt it, you doubt that 
amnesty should be granted to 11- or 12 million people?
    Secretary Johnson. Well, if you're referring to the 
estimated population of undocumented in this country, a lot of 
those people are and should be priorities for removal, so in my 
judgment, someone who is a priority for removal should not 
receive deferred action.
    Mr. Ratcliffe. I see my time is expired.
    Mr. Chairman, I yield back.
    Mr. Gowdy. The gentleman yields back.
    Mr. Secretary, I thought we were kind of getting toward the 
end, and then two Members came up. Would you want or desire a 
short break, or you want to keep marching on in hopes that we--
--
    Secretary Johnson. I'm happy to keep going for a little 
while longer.
    Mr. Gowdy. Okay.
    Secretary Johnson. Thank you for asking.
    Mr. Gowdy. Yes, sir. The gentleman from New York, my 
friend, Mr. Hakeem Jeffries, is recognized.
    Mr. Jeffries. Thank you, distinguished Chair from South 
Carolina, my good friend, and I want to thank the Secretary for 
your presence here today, your patience, as well as the 
tremendous job that I believe you've done as the Secretary of 
Homeland Security, and your prior service.
    Secretary Johnson. Who's known you a lot longer than the 
gentleman from South Carolina.
    Mr. Jeffries. I want to begin by just asking that there are 
11 million undocumented immigrants in this country 
approximately; is that correct?
    Secretary Johnson. That is a Pew estimate from a few years 
ago, 11.3, yes.
    Mr. Jeffries. Okay. And has this Congress or any other 
Congress ever given the Department of Homeland Security the 
resources that will be required to deport all 11 million 
undocumented immigrants?
    Secretary Johnson. No.
    Mr. Jeffries. And so, therefore, is it reasonable to have a 
priority policy that focuses on those undocumented immigrants 
who would potentially pose the most danger to the American 
citizens?
    Secretary Johnson. Yes.
    Mr. Jeffries. Is that what DHS has done?
    Secretary Johnson. Yes.
    Mr. Jeffries. Okay. In New York City, we've got a 
technology innovation economy that has begun to develop in some 
significant ways for our city and our State as has been the 
case across the Nation, and I've been very supportive of that. 
Many within the technology sector have indicated that there's 
approximately a 20 percent vacancy rate, if not more, of jobs 
that they cannot fill here in America, that's been part of the 
impetus for an increase in H-1B visas, which I've supported.
    I was disturbed, however, by the revelations as to what 
appears to have taken place down in Florida at the Disney 
Company. I just wanted to ask a few questions about that. 
Before I did, I'd just asked unanimous consent that an article 
from the New York Times dated June 3, 2015, titled ``Pink Slips 
at Disney, But First Training Foreign Replacements'' be entered 
into the record.
    Mr. Gowdy. Without objection.
    [The information referred to follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                      __________
    Mr. Jeffries. And so, as I understand it, approximately 250 
Disney workers were laid off at some point in 2014, and then 
many were replaced by immigrants hired by an outsourcing 
company based in India; is that correct?
    Secretary Johnson. That's basically my understanding, yes.
    Mr. Jeffries. And is it also your understanding----
    Secretary Johnson. That's my understanding of the public 
reporting of it. The matter is under investigation.
    Mr. Jeffries. Okay. So, as I understand it, those 
individuals were allegedly laid off and then asked, prior to 
their departure, to train individuals connected to this company 
to replace them who were given H-1B visas. Is that the current 
allegation, as you understand it?
    Secretary Johnson. Yes, I believe so, but the matter is 
under investigation.
    Mr. Jeffries. Okay. And so I understand what the law is in 
this area, am I correct that the H-1B visa program, which 
provides a limited number of temporary visas. I believe it's 
somewhere in the neighborhood of 85,000 a year for foreigners 
with computer science, engineering, or other advanced skills, 
to fill jobs in American companies when American workers are 
not otherwise available. Is that a correct description of the 
program?
    Secretary Johnson. That sounds basically correct to me, 
sir. Yes, sir.
    Mr. Jeffries. And if your investigation determines that 
this particular company or any other company violated the 
actual law related to the issuance of H-1B visas and the 
employment constraints, what are the potential consequences 
related to a violation of the policy?
    Secretary Johnson. Well, that's actually something where I 
think Congress may be able to help us.
    It's my understanding that we don't have enough tools 
legally to deal with that kind of situation, assuming it 
occurs. And so what people have told me is that we could use 
some help from Congress to bolster our enforcement capabilities 
in a situation such as that one. And I can get you a more 
informed opinion on that answer, but that's what I'm advised 
of.
    Mr. Jeffries. Well, thank you, Mr. Secretary. I'd be 
interested in your further thoughts in that area.
    And I yield back.
    Mr. Gowdy. The Chair thanks the gentleman.
    The Chair will now recognize the gentleman from Texas, Mr. 
Farenthold.
    Mr. Farenthold. Thank you, Mr. Chairman.
    Secretary Johnson, thank you for being here. We appreciate 
your service to the country.
    First of all, just can you give me a quick response with 
the percentage, how secure do you think our southern border is?
    Secretary Johnson. How secure----
    Mr. Farenthold. How secure is the southern border, 
percentage?
    Secretary Johnson. It's tough to quantify by percentage. As 
I mentioned earlier, I think that over the last 15 years we've 
come a long way in our border security----
    Mr. Farenthold. So are we 50, 75? I mean, what do you 
think? You can't put a number on it? I mean, how can you 
measure results if you can't quantify it?
    Secretary Johnson. The percentage of the border that is 
secure?
    Mr. Farenthold. How secure is it? What percentage of folks 
are getting away that are crossing? Do you have any idea?
    Secretary Johnson. Apprehensions, which are an indicator of 
total attempts to cross the border illegally, have gone down 
considerably in the last year.
    Mr. Farenthold. So you can't give me a number. That's fine.
    I spent some time on our southern border talking to the men 
and women actually in the field. I represent south Texas. Used 
to represent the border down at Brownsville. So it's kind of 
right in the backyard of the district that I represent. And I 
have to tell you, I'm hearing a lot of frustration from the 
rank and file of the Border Patrol. I'm hearing restrictions on 
overtime are causing smaller teams of Border Patrol agents to 
be sent in pursuit of crossers and that prosecutorial 
discretion means that aliens and drug smugglers that our agents 
risk their lives to apprehend are just getting released. I've 
also recently heard the Administration is planning to cut 
proposed fleet purchases to replace the vehicles that our 
Border Patrol agents desperately need to secure our borders.
    These men and women are brave in danger in a very rough 
environment. I actually did a ride-along out in the brush, and 
I understand that it's tough to protect this country, 
especially in some of the terrain in south Texas. But the 
Administration's policies seem to completely ignore the fact 
that they need the equipment and the manpower to do what they 
need to do, and it seems like they're almost intentionally 
reducing the morale of Border Patrol agents.
    Tell me, if you had to be on the border working shifts with 
the men and women in uniform, and you know that in all 
likelihood that you're putting your life in danger to catch 
illegal aliens and dangerous drug smugglers that most likely 
end up getting released from custody and walking away in the 
end, how would you feel about it?
    Secretary Johnson. Well, again--well, let me answer it this 
way, if I may. Under our new policy, those apprehended at the 
border are priorities for removal, and those apprehended who 
arrived in this country after January 1, 2014, are priorities 
for removal.
    Mr. Farenthold. But what I'm hearing from the Border Patrol 
agents is they're catching somebody, and then just a few days 
later they're catching the same person again. So you deport 
them, they're taken basically back across the bridge, and my 
understanding of the contracts with the coyotes is you get 
three tries to get across.
    Secretary Johnson. That person should be a priority for 
removal. And I believe that in our current budget request to 
Congress we are asking for more surveillance technology, more 
border security to do a better job. We've come a long way in 
the last 15 years. I'm very pleased about that. But I know that 
there's a lot more to do, sir.
    Mr. Farenthold. And I know Mr. Gowdy's bill helps with some 
of that, and we look forward to getting that through Congress.
    Let me take it from the other side. If you were an alien or 
a drug smuggler with the knowledge that as long as you don't 
bring more than a handful of people across or a certain amount 
of drugs, under the prosecutorial discretion limits that 
everybody knows, you'd get way scot-free. Wouldn't that just be 
an incentive to keep going? I mean, it doesn't seem like that 
would be a deterrent.
    Secretary Johnson. I disagree. Those apprehended at the 
border, irrespective of whether they have narcotics with them, 
irrespective of whether they're smuggling, our priority is 
removal.
    Mr. Farenthold. All right. But what about the drug 
smugglers with small amounts of drugs or the coyotes that are 
only bringing over three folks? My understanding from the 
Border Patrol agents is that if you have less than four, you 
basically walk as the coyote.
    Secretary Johnson. We've also, beginning last year, cracked 
down on the smuggling organizations. That's something that the 
Department of Justice and I instituted last summer.
    Mr. Farenthold. But are you telling me that it's not a fact 
that if you have a small number of aliens or a small amount of 
drugs with you, you're certainly not going to face any jail 
time, at worst you're going to be taken back across the border?
    Secretary Johnson. Well, that's a matter of law enforcement 
and prosecutorial discretion by the Department of Justice. I do 
know that since last year, since about a year ago, we have 
prioritized going after the coyote organizations.
    Mr. Farenthold. All right. Well, thank you very much.
    I see I've only got 5 seconds left, so I'll yield back the 
remainder of my time.
    Mr. Gowdy. The gentleman yields back.
    Mr. Secretary, you've been here a good long while. I know 
you have other commitments. I wanted to recognize Mr. Gutierrez 
for any closing reflections that he may have, and then I 
wanted, at the Chairman's request, to mention a couple matters, 
and then we'll have you out of there.
    Mr. Gutierrez
    Mr. Gutierrez. First, thank you, Mr. Gowdy, for your 
excellent presiding over these hearings.
    One of the reasons, Mr. Secretary, one of us always stays 
behind as part of the minority, to protect the interests of the 
minority, and in the case yours. I was totally unnecessary. As 
you can see, the Chairman is very well balanced and evenhanded 
in everything.
    I just want to just for the record, because I think it's 
very important, I want to say to you, Mr. Gowdy, I share with 
you the same anguish and pain, as I know the Secretary does and 
every American, at the death of that woman, and that nobody has 
come here to look for excuses or anything else. That woman 
should be alive. That woman should be enjoying life in the 
United States of America. Mr. Lopez should never have been 
allowed on the streets of our Nation again.
    But I think it is important that we have the facts 
straight, that our system does work, and sometimes it fails us. 
He was sentenced 63 months, 51 months, 21 months, 46 months. 
Four consecutive times he was sentenced to over 10 years--and 
he served them--over 10 years in jail because he illegally 
entered the United States of America time and time again, 
violating. I mean, this is a career criminal that we had on our 
hands.
    So I think we should just try to figure out a way, because 
I really believe this, and I want to put this on the record 
even though it might cause you great damage back in South 
Carolina, I really believe that if you and I and the Secretary 
and men and women who wanted to solve the problem, we could 
solve this problem and we could save future people from harm.
    This man is not an immigrant. Immigrants come here to work 
hard, sweat, and toil. We should be warm and receiving. This 
man's a foreigner who came here to cause damage. And let's fix 
our broken immigration system so we can get rid of the 
foreigners that come here to cause damage and harm and welcome 
the immigrants.
    Thank you so much, Mr. Secretary, for a long day here with 
us.
    Mr. Gowdy. I thank the gentleman from Illinois and for what 
he said and for being always very consistent. In the entire 
time I've been on this Committee you have zero tolerance for 
those who come here to do harm to anyone, and that has been 
your position as long as I've known you.
    Mr. Secretary, the Chairman wanted me to mention really 
quickly to you that he had written in March about alleged fraud 
in the Special Immigrant Justice Visa Program, and he pledged 
again his willingness to work with you to cooperate to identify 
any of the sources of the fraud so that it can be eliminated.
    I can tell by the look on your face you may--I'm sure you 
get a lot of letters--you may not specifically recall that one, 
but I know the folks behind you will bring it up. I think it 
was in March of this year. But if not, if we need to get you 
another copy of that, we will.
    Secondarily, it sounds like you are well aware of the 
Sentencing Commission's change and that you and the Department 
of Justice are working on that.
    I'm not going to ask you about the Fifth Circuit. You 
couldn't comment on it. I can ask about it anyway.
    The only thing I would add to what my friend from Illinois 
said, there are parts of immigration that you and I and Mr. 
Gutierrez are probably not ever going to agree on, and that's 
good, that's fine, that's the beauty of a democracy.
    I think what we can all agree on is to return someone with 
his criminal history to a jurisdiction that had no intention 
whatsoever of ever prosecuting him, and in the process he is 
released, should be an affront to everyone, irrespective of 
political ideation. San Francisco had no intention of 
prosecuting him. They dismissed the case. You can dismiss it 
when he's halfway through his Federal prison sentence just as 
easily as you can when he's in your custody.
    So I will tell you, I am happy to work within, and I get 
the commandeering clause, I get the due process considerations. 
I know that those are legitimate. You got court cases out 
there. If there's a way to get around that--you know, what I 
find instructive--I don't doubt your power of persuasion, and I 
know that you're going to go back and talk to those five 
municipalities that told you no. But even after this young 
woman was murdered San Francisco is already on the record 
saying they're not going to change their policy.
    So when you have a city like that, I don't know that 
cooperation and persuasion's going to work. So we may need to 
consider something else. I mean, when I look at you, I see the 
Secretary of Homeland Security for the United States of 
America. He shouldn't have to ask San Francisco. You shouldn't 
have to get their cooperation. You, to me, outrank the city 
supervisors in San Francisco.
    So with that, thank you for your patience. You have a 
really hard job. And we appreciate your current service and 
your previous service.
    With that, we are adjourned.
    [Whereupon, at 1:29 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                              

               Response to Questions for the Record from 
   the Honorable Jeh Charles Johnson, Secretary of Homeland Security
   
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                 <all>
</pre></body></html>
